<html>
<title> - OVERSIGHT HEARING ON THE POTENTIAL IMPLICATIONS OF PENDING MARINE NATIONAL MONUMENT DESIGNATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




    THE POTENTIAL IMPLICATIONS OF PENDING MARINE NATIONAL MONUMENT 
                             DESIGNATIONS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 29, 2015

                               __________

                           Serial No. 114-21

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-866 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                                 ------                                

















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 29, 2015......................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     3
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     7
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4

Statement of Witnesses:
    Bamford, Holly, Ph.D., Assistant Secretary for Conservation 
      and Management, National Oceanic and Atmospheric 
      Administration's (NOAA) National Ocean Service, Silver 
      Spring, Maryland...........................................    12
        Prepared statement of....................................    14
        Questions submitted for the record.......................    17
    Moore, Rod, Executive Director, West Coast Seafood Processors 
      Association, Portland, Oregon..............................    25
        Prepared statement of....................................    27
    Oliver, Chris, Executive Director, North Pacific Fishery 
      Management Council, Anchorage, Alaska......................    29
        Prepared statement of....................................    31
    Rosenberg, Andrew A., Ph.D., Director, Center for Science and 
      Democracy, Union of Concerned Scientists, Two Battle 
      Square, Cambridge, Massachusetts...........................    22
        Prepared statement of....................................    23
        Questions submitted for the record.......................    24
    Williams, Jon, Owner, Atlantic Red Crab Company, New Bedford, 
      Massachusetts..............................................     8
        Prepared statement of....................................    10

Additional Materials Submitted for the Record:
    Northeast Seafood Coalition, Letter dated September 23, 2015 
      from over 1,500 fishermen and community residents to the 
      President..................................................     2
 
   OVERSIGHT HEARING ON THE POTENTIAL IMPLICATIONS OF PENDING MARINE 
                     NATIONAL MONUMENT DESIGNATIONS

                              ----------                              


                      Tuesday, September 29, 2015

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Young, Gosar, LaMalfa, 
Graves, MacArthur; Huffman, Costa, Sablan, Lowenthal, Torres, 
and Dingell.
    Also Present: Representative Radewagen.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order.
    The Water, Power and Oceans Subcommittee meets today to 
hear testimony on an oversight hearing entitled, ``The 
Potential Implications of Pending Marine National Monument 
Designations.''
    Before we begin, I ask for unanimous consent to allow our 
colleague and committee member, Congresswoman Amata Radewagen, 
to participate in our hearing today. I do not see her; but 
anyway, hearing no objections, so ordered.
    We will begin with our opening statements.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today the Subcommittee on Water, Power and 
Oceans will look at the lesser known side of the Antiquities 
Act, the designation of marine national monuments. Like the 
designation of land-based national monuments, marine monuments 
could have significant impacts, not just regionally, but 
nationwide as well.
    Many of our colleagues here today represent noncoastal 
districts. However, we can all relate to the issue when a 
president abuses the Antiquities Act as a means to shut off 
multiple uses of lands and waters. This is a tool that 
President Obama has used more than any other president to date. 
Just because the Antiquities Act has been used by Republican 
presidents, does not justify such closures.
    While there are not any marine national monuments currently 
being considered off of the coast of my home state of 
Louisiana, there are potential impacts that such a designation 
could have on our multiple industries and our world renowned 
restaurants.
    While more than 30,000 Louisiana jobs are directly 
supported by the seafood industry, Massachusetts' and Alaska's 
seafood industries support more than 160,000 jobs that will be 
directly impacted by potential designations that are now on the 
table.
    One of our witnesses here today directly employs 150 of 
these workers himself, all of whom would be affected by a 
marine national monument designation.
    What is really most troubling here is that these areas 
already have a great deal of protections under the Magnuson-
Stevens Act. These are longstanding protections that have the 
support of over 1,500 fishermen and community residents in New 
England, all of whom are opposed to a potential marine national 
monument off their coast.
    I ask unanimous consent to enter their letter into the 
record.
    Hearing no objection, so ordered.

    [The letter from New England fishermen and community 
residents follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                             September 23, 2015

The President
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500

    Mr. President:

    We, the undersigned, in conjunction with the Fisheries Survival 
Fund and the Northeast Seafood Coalition, object to any attempt to 
manage New England's offshore marine habitats through the use of the 
Antiquities Act and the designation of National Monuments. Doing so 
undermines the public and democratic processes that are now in place to 
manage these areas, shuts out important stakeholders, and prevents 
meaningful outside input. Considering that the current public process 
has led to the substantial habitat protections already in place 
throughout the region, such a designation is both unnecessary and 
damaging to the long-term management of these areas.

    New England's marine habitats are currently managed through a 
consultative process that considers the experience and input of expert 
scientists, fishermen, environmentalists, and regulators. It is where 
the best available science and analytical approaches are vetted in an 
open and transparent venue. Large-scale closures, enacted by executive 
fiat and not based in science, are not only undemocratic but they can 
have substantial unintended adverse impacts on bycatch composition, 
region-wide habitat, and the economies of coastal communities.

    Recent actions by the New England Fishery Management Council 
(NEFMC), specifically the recently passed Omnibus Habitat Amendment 2 
(OHA2) reinforce habitat protections in New England waters into the 
foreseeable future.

    In addition to protecting features such as the kelp forests on 
Cashes Ledge under OHA2, the regional management councils have gone to 
great lengths to further safeguard essential habitats such as corals. 
The NEFMC is considering the Deep-Sea Coral Amendment, which would 
preserve the coral habitats in the New England Canyons and Seamounts, 
areas that have also been frequently under discussion for National 
Monument designation. The Mid-Atlantic Fishery Management Council 
(MAFMC) also recently acted to protect over 38,000 square miles of 
deep-sea coral. These are clear demonstrations that current habitat 
management is remarkably sensitive to conservation and the need to 
protect unique habitats.

    Replacing this collaborative, open management with top-down 
Presidential action undermines these successful efforts. It makes it 
less likely that local voices are heard in the deliberations, narrows 
the decision-making process from broadly democratic to single-handed, 
and in consequence disregards crucial stakeholder input and expertise. 
It ultimately results in a regulatory process that is not responsive to 
feedback and is not accountable to the people who are most affected by 
it.

    As members of the fishing communities whose livelihoods depend on 
inclusive, responsive management we recognize that such a fundamental 
altering of the regulatory process is unacceptable. Any management of 
public resources needs to preserve public input and involvement, not 
disregard it. We oppose unilateral Executive Action to declare marine 
National Monuments in New England.

            Sincerely,

            [This letter contains 74 pages of signatures.  
The complete list of names is available in the Committee's 
                                           official files.]

cc: Hon. Penny Pritzker, Secretary of Commerce
   Hon. Kathryn Sullivan, Ph.D., Under Secretary of Commerce for Oceans 
and
   Atmosphere
   Eileen Sobeck, NOAA Assistant Administrator for Fisheries

                                 ______
                                 

    Dr. Fleming. Another area we will be looking at today, the 
Aleutian Islands in Alaska, was submitted through NOAA's 
National Marine Sanctuary Public Nomination Process for 
additional protections and was denied because the proposal did 
not demonstrate the support from a ``breadth of community 
interests.''
    Now, those same special interests are trying to take a 
second bite at the apple by petitioning the President to 
designate an even larger area as a marine national monument.
    While we will hear today that the impact of these potential 
designations would be devastating to the local communities and 
economies, there is much more at stake here. According to 
Federal statistics, the North Pacific and New England rank one 
and two in total landings revenue by region, well over half of 
the U.S. harvested seafood landings. The only thing monumental 
in all of this is the staggering impact it could have on our 
seafood markets.
    This is an important issue, and we are privileged today to 
hear from on-the-ground experts. I look forward to hearing from 
them and from the Administration on its plans.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today, the Subcommittee on Water, Power and Oceans will look at a 
lesser known side of the Antiquities Act: the designation of marine 
national monuments.
    Like the designation of land-based national monuments, marine 
monuments could have significant impacts not just regionally but 
nationwide as well.
    Many of my colleagues here today represent noncoastal districts, 
however we can all relate to the issue when a president abuses the 
Antiquities Act as a means to shut off multiple uses of lands and 
waters. This is a tool that President Obama has used more than any 
other American president to date. Just because the Antiquities Act has 
been used by Republican presidents does not justify such closures.
    While there aren't any marine national monuments currently being 
considered off of the coast of my home state of Louisiana, there are 
potential impacts that such a designation could have on our multiple 
industries and our world renowned restaurants. While more than 30,000 
Louisiana jobs are directly supported by the seafood industry, 
Massachusetts and Alaska's seafood industries support more than 160,000 
jobs that will be directly impacted by potential designations that are 
now on the table. One of our witnesses here today directly employs 150 
of these workers himself--all of whom would be effected by a marine 
national monument designation.
    What is really most troubling here is that these areas already have 
a great deal of protections under the Magnuson-Stevens Act. These are 
longstanding protections that have the support of over 1,500 fishermen 
and community residents in New England--all of whom are opposed to a 
potential marine national monument off their coast. I ask unanimous 
consent to enter their letter into the record.
    Another area we will be looking at today--the Aleutian Islands in 
Alaska--was submitted through NOAA's National Marine Sanctuary Public 
Nomination Process for additional protections and was denied as the 
proposal did not demonstrate the support from a ``breadth of community 
interests.'' Now, those same special interests are trying to take a 
second bite at the apple by petitioning the President to designate an 
even larger area as a marine national monument.
    While we will hear today that the impact of these potential 
designations would be devastating to the local communities and 
economies, there is much more at stake here. According to Federal 
statistics, the North Pacific and New England rank one and two in total 
landings revenue by region--well over half of U.S. harvested seafood 
landings. The only thing monumental in all of this is the staggering 
impact it could have on our seafood markets.
    This is an important issue and we are privileged today to hear from 
on-the-ground experts. I look forward to hearing from them and from the 
Administration on its plans.

                                 ______
                                 

    Dr. Fleming. I now recognize the Ranking Member, Mr. 
Huffman, for his statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman, and good morning.
    In 1903, a Republican president, Teddy Roosevelt, made his 
first trip to the Grand Canyon in Arizona, which at the time 
was under significant threat of damage from the mining industry 
and other development interests. Roosevelt lacked legal 
authority to protect the area at the time; but in a speech 
during that visit, he publicly pleaded for its conservation 
saying, ``I want to ask you to keep this great wonder of nature 
as it is now. I hope you will not have a building of any kind, 
not a summer cottage, a hotel or anything else, to mar the 
wonderful grandeur, the sublimity, the great loneliness and 
beauty of the canyon. Leave it as it is. You cannot improve on 
it. The ages have been at work on it, and man can only mar 
it.''
    Three years later, a Republican Congress passed the 
Antiquities Act, which gave President Roosevelt the authority 
to dedicate national monuments, to preserve our country's 
natural and cultural heritage. In 1908, he used it by 
dedicating the Grand Canyon National Monument. It later became 
a national park, and it is protected in perpetuity for the 
benefit of all Americans.
    A century after President Roosevelt signed the Antiquities 
Act into law, another Republican president, George W. Bush, 
dedicated the first marine national monument around the 
Northwest Hawaiian Islands. Subsequent marine monument and 
sanctuary designations and expansions by Presidents Bush and 
Obama have increased the amount of U.S. waters protected from 
development to nearly 3 percent, but that total still lags far 
behind the 10 percent of U.S. lands that have been set aside 
for conservation. That is a shame because America's coral 
reefs, kelp forests, and submarine canyons have incredible 
value as fish factories, as banks of biodiversity.
    Protecting these resources will actually lead to more 
productive fisheries and more opportunities for scientific 
observations and discoveries that could benefit all of us. I 
fear that the Majority is holding today's hearing in an attempt 
to pit conservation interests against the fishing industry.
    I think most Americans reject that as a false choice. In 
fact, fishermen in my district overwhelmingly supported last 
year's expansion of the Gulf of the Farallones and Cordell Bank 
National Marine Sanctuaries off the coast of my district. They 
understand what marine scientists also understand, and that is 
that protecting key habitats can improve fisheries in adjacent 
areas, leading to healthier coastal economies.
    Just last month, I had the pleasure of catching the fish 
you see in that picture in one of our national marine 
sanctuaries. That was in the Gulf of the Farallones Sanctuary 
off the Coast of Marin County.
    So, obviously, the notion that you cannot fish in marine 
sanctuaries certainly has not been my experience.
    Republican presidents from Roosevelt to Bush, and many in 
between, recognize the importance of the Antiquities Act in 
creating a balance between the use of U.S. public lands and 
waters for resource extraction and protecting those areas for 
future generations.
    Who knows what might have happened without the national 
monuments established under the Antiquities Act. Would 
Americans today enjoy their views of the Grand Canyon Copper 
Mine, the Muir Woods giant redwood clear-cut, or the Dinosaur 
National oil field?
    Thankfully, instead of that we have the protection of 
national monuments in these areas, and it does not seem to have 
caused a shortage of land available for the extractive 
industries. It is completely appropriate for us to move toward 
a similar balance with respect to utilization of our ocean 
resources.
    I would like to close, Mr. Chairman, by offering another 
quote from President Teddy Roosevelt, ``The nation behaves well 
if it treats the natural resources as assets which it must turn 
over to the next generation increased, and not impaired, in 
value.''
    We are still trying to understand our oceans. They cover 70 
percent of our planet's surface, but we have only explored 5 
percent of their depths. Every day we make new discoveries that 
have the potential to benefit future generations, but the 
potential for those discoveries is limited when we allow 
unchecked resource exploitation without setting aside 
representative areas for conservation and further study.
    Particularly in the face of climate change and ocean 
acidification, we must use whatever authorities are available 
to us to ensure that our ocean ecosystems remain healthy and 
productive.
    I yield back.
    Dr. Fleming. The gentleman yields back.
    The Chair now recognizes our Vice Chair, Dr. Gosar, for a 
statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman.
    Today's hearing brings together those concerned about the 
sweeping powers allowed under the Antiquities Act of 1906. Well 
over a century old, the law is in desperate need of 
modernization.
    The West, of course, is all too familiar with national 
monuments and not in a good way. In Arizona, a state with more 
national monuments than any other state in the Union, extremist 
environmental organizations, and some misguided members of our 
own state's congressional delegation, have been pushing the 
President to circumvent Congress and to make a new 1.7 million 
acre designation using the Antiquities Act in the Grand Canyon 
watershed.
    The real intentions of these short-sighted, self-interest 
groups are clear. They want these designations to prevent 
energy development, timber harvesting, grazing, mining, and 
different types of recreation on massive swaths of land.
    Earlier this year, the House passed an amendment that I 
helped to spearhead, which would prevent the President from 
circumventing Congress to carry out such a declaration on the 
Antiquities Act. When President Clinton single-handedly 
designated the Grand Staircase-Escalante National Monument in 
Utah--he announced this move from a mountaintop in Arizona, I 
might add--it sent shockwaves of presidential abuse. Now, our 
domestic ocean waters have joined the party.
    The prior administration mistakenly created our first 
national marine monuments, yet this President seems to be on 
steroids when it comes to expanding marine monuments and 
creating land monuments. He has single-handedly walled off over 
260 million acres of land and 430,000 square miles of ocean in 
his wake; and as we will hear today, there could be more to 
come with the stroke of a pen under the cover of darkness.
    Arizona is not exactly known as a seafood harvest mecca, 
but we have plenty of consumers who depend on the ocean's 
bounty. Our food supply is already being compromised by natural 
drought and land and water regulations, and now we have an 
environmental activist using a deeply flawed law in an attempt 
to close commercial fishing off the coasts of Alaska and New 
England. It is no doubt they are banking on this Administration 
for help.
    The Administration, in my opinion, showed its true colors 
when it recently held a town meeting in Providence, Rhode 
Island to hear public input on a proposed, nearby marine 
monument. One witness before us today called the meeting a 
``charade'' that provided little details to the public.
    The meeting was not broadcast on radio, television, or on 
the Web, unintentionally symbolic of an era in which the 
Antiquities Act was created. The agency before us today, NOAA, 
needs to explain this pitiful process despite its President 
once saying that it would be the ``most transparent ever.''
    The Antiquities Act, at the very least, should be brought 
into the 21st century and needs to stop being a relic hijacked 
by those bent upon restricting access and jobs. Taxpayers 
deserve better; landowners deserve better; fishermen deserve 
better; and dock workers, among many, deserve better.
    This hearing is a step toward giving those a voice that 
this Administration chooses to ignore.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Dr. Gosar follows:]
   Prepared Statement of the Hon. Paul A. Gosar, a Representative in 
                   Congress from the State of Arizona
    Today's hearing brings together those concerned about the sweeping 
powers allowed under the Antiquities Act of 1906. Well over a century 
old, the law is in desperate need of modernization.
    The West, of course, is all too familiar with national monuments 
and not in a good way. When President Clinton single-handedly 
designated the Grand Staircase-Escalante National Monument in Utah--he 
announced this move from a mountaintop in Arizona, I might add--it sent 
shockwaves of presidential abuse. Now, our domestic ocean waters have 
joined the party.
    The prior administration mistakenly created our first national 
marine monuments, yet this President seems to be on steroids when it 
comes to expanding marine monuments and creating land monuments. He has 
single-handedly walled off over 260 million acres of land and 403,000 
total square miles of ocean in his wake. And, as we will hear today, 
there could be more to come with the stroke of a pen under the cover of 
darkness.
    Arizona isn't exactly known as a seafood harvest mecca, but we have 
plenty of consumers who depend on the ocean's bounty. Our food supply 
is already being compromised by natural drought and land and water 
regulation and now we have environmental activists using a deeply 
flawed law in an attempt to close commercial fishing off the coasts of 
Alaska and New England. It's no doubt they are banking on this 
Administration to help.
    The Administration, in my opinion, showed its true colors when it 
recently held a town meeting in Providence, Rhode Island to hear public 
input on a proposed nearby marine monument. One witness before us today 
called the meeting a ``charade'' that provided little details to the 
public. The meeting was not broadcast on radio, television or on the 
web--unintentionally symbolic of the era creating the Antiquities Act. 
The agency before us today--NOAA--needs to explain this pitiful process 
despite its President once saying that it would be the ``most 
transparent ever.''
    The Antiquities Act, at the very least, should be brought into the 
21st century and needs to stop being a relic hijacked by those bent 
upon restricting access and jobs. Taxpayers deserve better. Landowners 
deserve better. Fishermen deserve better. And dock workers, among the 
many, deserve better.
    This hearing is a step toward giving those a voice that this 
Administration chooses to ignore.

                                 ______
                                 

    Dr. Fleming. The gentleman yields back.
    We have also been joined today by Mr. Sablan, former 
Ranking Member of the subcommittee that I was Chairman of 
before this Congress, and I would like to ask unanimous consent 
that he sit on the dais with us.
    Hearing no objection, so ordered.
    OK. We have our witnesses today, but before we introduce 
our witnesses, I just want to let you know that we do have a 
time system here. You have 5 minutes for your testimony; you 
will be under a green light for 4 minutes, then a yellow light 
for 1 minute. Once the red light comes on, we ask that you 
quickly conclude your opening statement.
    Your prepared statement, no matter how long it is, will be 
entered into the record completely. So, no need to rush through 
it, just use up your 5 minutes as you will and we will put your 
entire statement into the record.
    The Chair now calls upon Mr. Young for a couple of 
introductions this morning.
    Mr. Young. Thank you, Mr. Chairman. I do appreciate this 
hearing and I think it is crucially important. I have two 
witnesses on this panel.
    We have Chris Oliver, Executive Director of the North 
Pacific Fishery Management Council, who has done an outstanding 
job. More than that, we have Rod Moore--and just to give you a 
little background, Mr. Moore worked for me for numerous years, 
helped write the Magnuson-Stevens Act for fisheries and for the 
sustainable yield, and it benefited communities, not for 
monuments, and he is retiring. I hate to hear that. He will 
probably get a fishing boat and go fishing on one of these 
monuments, but, Rod, thank you for all of your service to the 
United States and to the state of Alaska and, of course, the 
state of Oregon.
    Thank you, Mr. Chairman.
    Dr. Fleming. OK. We have further introductions. First of 
all, we have Mr. Jon Williams, owner of the Atlantic Red Crab 
Company in New Bedford, Massachusetts.
    Your names are very tiny. I hope I am getting this in 
proper order. I cannot read them from here.
    Dr. Holly Bamford, the Assistant Secretary for Conservation 
and Management for the National Ocean Service in Silver Spring, 
Maryland.
    Dr. Andrew Rosenberg, Director of the Center for Science 
and Democracy with the Union of Concerned Scientists in 
Cambridge, Massachusetts.
    Mr. Rod Moore, Executive Director of the West Coast Seafood 
Processors Association in Portland, Oregon.
    And, of course, previously introduced, Mr. Chris Oliver, 
Executive Director of the North Pacific Fishery Management 
Council, based out of Anchorage, Alaska.
    The Chair now recognizes Mr. Williams for his testimony.

 STATEMENT OF JON WILLIAMS, OWNER, ATLANTIC RED CRAB COMPANY, 
                   NEW BEDFORD, MASSACHUSETTS

    Mr. Williams. Thank you, Mr. Chairman. It is a pleasure to 
be here, and an honor.
    Dr. Fleming. It is important to bring the tip of the 
microphone close to you, otherwise we cannot pick up your 
voice.
    Mr. Williams. OK. My name is Jon Williams. I am the founder 
and owner of the Atlantic Red Crab Company. It is a vertically 
integrated crab company. We own our own vessels and catch our 
own crab; and we process, package, and distribute it around the 
country. We are the largest crabmeat company in North America. 
We employ about 160 people, a little over 150 this week, I 
guess.
    This, obviously, is a very troubling time for me and my 
company in kind of going through this process. I just want to 
say that it is the process that is troubling, because as I 
built my company, I had numerous, numerous opportunities to 
testify and get involved with the fishery management councils, 
both the New England Fishery Management Council and the Mid-
Atlantic Fishery Management Council, and sat on many committees 
and in many, many fairly rowdy conversations between fishermen 
and environmentalists in the same room.
    But at the end of the day, the system, as flawed as some 
people think it is, works and it has worked for many years. It 
works because there are two different opinions in the room, and 
both people get the opportunity to speak their own opinion, and 
generally if you say there are two sides to every story, the 
truth falls someplace in between.
    We have for many years, and even as recently as 3 months 
ago, participated in an over 2-year process when they wrote a 
whiting amendment or squid amendment in the Mid-Atlantic that 
resulted in protecting 38,000 square miles of ocean floor for 
exactly what we are asking for today, and it was 38,000 miles 
of coral protection.
    My fishing company and I have been exempted for 2 years 
from those four large areas. I do not know what my future will 
be down there after 2 years--that is still up in the air, but 
we were part of the process, and the fishermen were part of the 
process. We had a 2-day workshop with the environmentalists, 
regulators, and fishermen all in the room. We had charts up on 
the wall. There were dozens and dozens and dozens of charts of 
where we are moving lines, and fishermen would be able to 
participate.
    Now, just 3 months later, the first I heard about this was 
the week before the town hall meeting, when somebody called me 
up and said, ``What do you know about this monument thing going 
on? '' And I said, ``I don't know anything about it,'' and 
nobody else did. I actually ended up getting a call from one of 
the environmental groups that is spearheading this asking me if 
I was going to attend and, of course, I was.
    The problem that is tough is the perception that something 
has to be done here and this is an emergency, that these areas 
are going to be faced with irreparable harm; and that if we do 
not do something right now, that these places are going to go 
away.
    That is what people are being told in the fact sheets that 
are going out to millions of people. Fishermen are going to 
fish deeper. Oil companies are coming in, and everything else.
    I mean, we are already as deep as we want to fish. There is 
nothing deeper than where we are, and we have the technology to 
go a lot deeper, but it is an abyss. There is really nothing 
for us to go after or we would be there.
    Eighty percent of the area that is being proposed is deeper 
than anybody fishes. It is really the fringe of the area. But 
we have yet to see a chart, so we do not really know what the 
area looks like. We have yet to see one line drawn on a 
nautical chart on where this is going to be and where the 
radius is going to be.
    So now, we have had petitions go back and forth. I think it 
is very unfortunate that 160 people signed a petition because 
of being given some false information.
    That is really the big thing. There are places that are 
described as being pristine, and they are pristine and they 
need to be protected. There are four fisheries that have been 
in those areas for 40 years. If they go out there in these 
deepwater submersibles and they do not find any damage, I do 
not think that this is an emergency.
    I think this should go through the normal process with the 
New England Council where we have mechanisms in place for 
everybody to get their opinions out there. That is the American 
way.
    Thank you.
    [The prepared statement of Mr. Williams follows:]
   Prepared Statement of Jon Williams, President, Atlantic Red Crab 
                                Company
    Mr. Chairman, members of the committee, my name is Jon Williams and 
I'm the owner of a small business that fishes for Atlantic red crab off 
the New England coast. I thank you for the opportunity to speak about 
the threat to my livelihood that is posed by the pending marine 
national monument designation along the edge of the Continental Shelf 
off New England.
    Twenty years ago I started my crab fishing business from nothing; 
today I employ approximately 150 people in New Bedford, MA and feel 
confident that at least 5 million people each year enjoy the crab I 
produce, despite the fact that the red crab fishery is a very small 
fishery.
    More importantly, however, the Atlantic red crab fishery is proud 
to be an industry leader in sustainable fishing. In 2009, our fishery 
was the first on the Atlantic coast of the United States to be 
certified as sustainable by the Marine Stewardship Council. This 
certification process required a thorough review of the impact of the 
fishery on the red crab resource and its habitat along the edge of the 
Continental Shelf off the coast of New England and the Mid-Atlantic 
states. Although this process cost hundreds of thousands of dollars--a 
significant amount for a small business to pay out of pocket--it was 
important to us that we both understood how our fishery impacted the 
environment and demonstrated that our practices were indeed 
sustainable.
    The findings of the MSC certification process were indisputable: 
the Atlantic red crab fishery had minimal environmental impact on both 
the species stock and the surrounding environment, and set a clear 
example of how a commercial fishery could operate in a truly 
sustainable manner. Red crab is also listed as an ``Ocean-Friendly'' 
seafood by the New England Aquarium's Seafood Guide program.
    Now, 6 years later, NOAA Regional Administrator John Bullard an 
audience in Providence, RI that the Obama administration wants to 
designate three Continental Shelf canyons and four seamounts as a 
``National Monument,'' a move that would likely exclude the red crab 
fishery from its traditional fishing grounds. Despite the fact that a 
NOAA request for public comments on the proposal states a desire ``to 
ensure that we protect these unique places for future generations while 
recognizing the importance of sustainable ocean-based economies,'' 
there has been no meaningful opportunity to achieve that balance 
because the public has not been given any information on the details of 
the proposal. Mr. Bullard indicated to the press that no further 
details were likely before the President made his decision.
    The hastily arranged and poorly advertised ``Town Meeting'' hosted 
by NOAA in Providence on September 15 was a charade. With no details 
available, the fishermen whose livelihoods are at stake could not 
comment intelligently on the proposal, other than to express their fear 
that it would harm their businesses. On the other side, the people who 
bought the environmentalists' propaganda would have been happy to 
support anything that they believed would protect the oceans, because 
they didn't know and didn't care about the details, or about who would 
be hurt unnecessarily.
    The most troublesome thing about the use of the Antiquities Act to 
create marine national monuments is the complete lack of meaningful 
public input. The current proposal entirely circumvents the public 
processes outlined in the National Environmental Policy Act (NEPA), the 
Administrative Procedures Act, and numerous Executive Orders that were 
intended to protect the public against arbitrary rulemaking. In the 
fishing industry, we are also governed by the Magnuson-Stevens Fishery 
Conservation and Management Act. These laws insure that stakeholders 
have input into difficult and complex public policy questions. In the 
case of imminent threats, the Secretary of Commerce can always declare 
emergency regulations, which are followed by a more deliberative 
solution to whatever problem caused the emergency. In 1999, I asked for 
emergency action to protect the red crab fishery from overfishing. The 
New England Fishery Management Council then replaced the emergency 
rules with a carefully constructed fishery management plan based on 
extensive public input. We protected the resource without trampling on 
the laws that guard the public process.
    There is no need to abandon NEPA and the APA to protect marine 
areas. The established public process was used by the regional fishery 
management councils to protect more than 61,000 square miles of ocean 
bottom off the South Atlantic and Mid-Atlantic coasts. The New England 
Fishery Management Council is developing its own regulations to protect 
deep-sea corals even as we speak. In June 2015, when the Mid-Atlantic 
Fishery Management Council used the established process to protect 
38,000 square miles of ocean bottom off the Mid-Atlantic coast, NOAA 
Regional Administrator Bullard praised the collaborative process and 
its result, citing it as a model for future ocean policy development. 
Mr. Bullard's words will ring hollow if the President closes our 
fishing grounds with no meaningful public process.
    While the Antiquities Act of 1906 was undoubtedly conceived with 
the best intentions, a conglomerate of wealthy environmental activists 
has realized its potential to circumvent the normal public processes 
and lock up large areas of the ocean--a convenient loophole that 
ignores any public deliberation.
    As an industry that has worked tirelessly to serve as a model for 
sustainable fishing, we are not threatened by a public discussion of 
ocean conservation. Instead, it is the willingness of these 
environmental groups to ignore all public processes that we firmly 
stand against.
    There are no imminent threats to the Continental Shelf Canyons or 
the Atlantic seamounts from the Atlantic red crab industry or the other 
fisheries that operate in the proposed area. After spending millions of 
taxpayer dollars exploring and photographing these canyons, there has 
yet to be one shred of evidence of any damage caused by red crab 
fishing gear--even the supporters of the proposal have called these 
areas ``pristine'' after 40 years of red crab fishing.
    By displacing the Atlantic red crab fishery, the proposed national 
monument would harm the future of sustainable fishing--if a leader in 
sustainability can be irreparably harmed with no public process, then 
other fisheries will see few incentives to decrease their own 
environmental impact.
    Finally, the current proposal is also concerning because it has 
generated support based on faulty information. With billions of dollars 
in assets, the environmental organizations have demonstrated both an 
ability and a willingness to buy the support of concerned citizens 
through the use of misleading Web sites and ``fact sheets.'' For 
example, the video used to extoll the beauty of the proposed area 
wasn't even shot in the proposed area--instead it was shot in Block 
Canyon 100 miles to the west. Careful editing hid this deception from 
the public and from policymakers.
    The promotional materials further misled citizens in a discussion 
of right whales, claiming that designating the canyons would protect 
the species. Yet right whales are not known to travel in these canyons; 
they travel in much shallower waters--exactly where all of the 
displaced fishing gear will end up if forced out of the canyons. With 
this in mind, it becomes apparent that the proposed monument areas will 
undoubtedly be detrimental to the fragile right whale population.
    Our Founding Fathers recognized the danger to the Republic of 
``factions,'' and relied upon representative government to overcome 
that threat. As well-meaning as the Antiquities Act might have been 
when it was first adopted in 1906, it is clearly being misused and 
abused by ``factions'' who know that their overzealous attacks on 
environmentally benign fisheries would never pass muster in a more 
rigorous process.
    There is no need to exclude the historic commercial fishermen from 
the proposed marine national monument off New England. To the contrary, 
commercial fisheries provide the most tangible benefit to the public 
from these areas and commercial fishermen are part of the national 
heritage that needs to be preserved. The Magnuson-Stevens Fishery 
Conservation and Management Act can assure that fisheries that operate 
in this area are sustainable. In fact, I would suggest that any marine 
national monument designation include language to assure that fisheries 
within the monument shall not be peremptorily excluded, but would 
continue to be managed under the terms of the Magnuson-Stevens Act.
    In closing, I sincerely hope that before adopting these monuments 
as proposed, the Obama administration will meet with a few of the key 
stakeholders in these areas so they can get a true prospective on the 
impact this will have on our industry--and more importantly, the people 
that depend on it.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Williams.
    The Chair now recognizes Dr. Bamford for 5 minutes.

  STATEMENT OF HOLLY BAMFORD, Ph.D., ASSISTANT SECRETARY FOR 
 CONSERVATION AND MANAGEMENT, NATIONAL OCEANIC AND ATMOSPHERIC 
ADMINISTRATION'S (NOAA) NATIONAL OCEAN SERVICE, SILVER SPRING, 
                            MARYLAND

    Dr. Bamford. Good morning, Chairman Fleming, Ranking Member 
Huffman, members of the subcommittee.
    My name is Holly Bamford, and I am the Assistant 
Administrator for NOAA's National Ocean Service, currently 
performing the duties of the Assistant Secretary for 
Conservation and Management.
    Thank you for inviting NOAA to testify along with 
representatives from the commercial fishing industry, fishing 
management councils, and the scientific community on marine 
monument designations.
    NOAA works under a number of authorities to conserve and 
manage coastal marine resources, which support recreational, 
economic, cultural, and other opportunities for the American 
public. These include the National Marine Sanctuaries Act, 
Magnuson-Stevens Fishery Conservation and Management Act, 
Endangered Species Act, and Marine Mammal Protection Act.
    More recently, through Presidential Proclamations, NOAA has 
been given co-management responsibility with the Department of 
the Interior for four marine national monuments in the Pacific 
established by the prior administration in the Antiquities Act, 
and one expansion under the current president. Each of these 
statutes are tools to protect our Nation's trust resources.
    Today, I will focus my testimony on the process of 
establishing monuments and some conservation implications of 
place-based tools.
    Authorities to establish national monuments were provided 
to the President by Congress through the Antiquities Act of 
1906. Sixteen presidents of both parties have used the Act's 
authority more than 100 times to protect national treasures, 
such as the Grand Canyon, the C&O Canal, and the Statue of 
Liberty.
    Typically, ideas for areas to be established as monuments 
are proposed to the Administration by local and state elected 
officials, nongovernment organizations, scientists, or citizen 
groups.
    The authority to designate a monument lies with the 
President. NOAA's role includes providing information on the 
resources and activities in the considered marine areas and to 
assist with public engagement. While not required under the 
Antiquities Act, the four existing marine national monuments, 
which NOAA co-manages, each had some level of public engagement 
prior to their establishment and/or expansion.
    For example, in 2014, when President Obama indicated that 
his Administration would consider extending protections around 
the Pacific Remote Islands Marine National Monument, the 
Departments of Commerce and the Interior held public meetings 
in the region and accepted written public comments from 
interested parties.
    Congress has created a number of different place-based 
authorities for NOAA to protect and manage areas of significant 
natural, cultural, and maritime heritage. Many of those tools 
are found within the National Marine Sanctuaries Act and the 
Magnuson-Stevens Act.
    For more than 40 years, NOAA's Office of National Marine 
Sanctuaries has worked to protect special places in America's 
ocean and Great Lakes waters, from the site of a single Civil 
War shipwreck to remote coral reefs and tiny atolls.
    Marine sanctuaries have also shown to provide significant 
direct economic benefits for local and regional businesses. For 
example, it has been estimated that the National Marine 
Sanctuary System generates about $4 billion annually in local, 
coastal, and ocean-dependent economies from activities like 
fishing, research, recreation, and tourism.
    The success of many businesses, millions of dollars in 
sales, and thousands of jobs depend directly on thriving 
resources that these areas protect and maintain.
    Under the Magnuson-Stevens Act, eight fisheries management 
councils make conservation decisions every day. Fisheries 
management plans include conservation requirements, such as 
fishing seasons, quotas, and defining essential fish habitat 
and enclosed areas. Fisheries management councils are an 
important management partner with NOAA, and we are very mindful 
of their difficult responsibilities and efforts to help manage 
our fisheries and end overfishing.
    A good example of this is the North Pacific Fisheries 
Management Council's Precautionary Management Plan for the 
Arctic. The Plan prohibits commercial harvesting of fish until 
sufficient information is available to support a sustainable 
management of commercial fishing there.
    National marine monuments can provide a broad ecological 
and national heritage protection of the entire system, which is 
an effective manner of maintaining intact ecosystem services. 
For example, Papahanaumokuakea Marine National Monument 
provides critical protection of about 7,000 marine species, 
one-quarter of which are found only in the Hawaiian 
Archipelago. The monument also possesses rich, submerged 
heritage resources such as shipwrecks, sunken naval aircraft 
from World War II, and other archeological sites that are 
windows into the past.
    Additionally, the monument is the first site ever 
designated as a cultural seascape and is the only natural and 
cultural world heritage site in the United States.
    History has shown us that over time, conservation decisions 
guided by the Sanctuaries Act, Magnuson-Stevens Act, 
Antiquities Act, and other place-based authorities have shown 
positive social, economic, and cultural benefits.
    In closing, marine national monuments are one of a suite of 
place-based authorities available to the President to protect 
our most cherished ocean resources. NOAA is committed to 
building a stronger, more resilient future for American 
communities and economies. I thank you for the opportunity to 
discuss this today.
    [The prepared statement of Dr. Bamford follows:]
 Prepared Statement of Dr. Holly Bamford, Assistant Administrator for 
  the National Ocean Service, performing the duties of the Assistant 
    Secretary for Conservation and Management, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce
                              introduction
    Good morning, Mr. Chairman and members of the committee. Thank you 
for the opportunity to testify before you today. My name is Holly 
Bamford and I am the Assistant Administrator for the National Oceanic 
and Atmospheric Administration's (NOAA) National Ocean Service 
performing the duties of the Assistant Secretary for Conservation and 
Management. NOAA is dedicated to the stewardship of living marine 
resources through science-based conservation and management, and the 
promotion of healthy ecosystems.
    As a steward, NOAA works under a number of authorities to conserve, 
protect, and manage living marine resources to ensure functioning and 
healthy marine ecosystems, which support a wide range of recreational, 
economic, cultural and other opportunities for the American public. 
These include the National Marine Sanctuaries Act (NMSA), Magnuson-
Stevens Fishery Conservation and Management Act, Endangered Species 
Act, and Marine Mammal Protection Act. Based on these authorities, NOAA 
also has been given certain responsibilities for the stewardship and 
management of marine national monuments established by the President 
under the Antiquities Act.
    Today I will focus my testimony on the authorities, processes, 
management, and benefits of both national marine sanctuaries and marine 
national monuments.
                      national marine sanctuaries
    National marine sanctuaries are special places in marine and Great 
Lakes waters that protect and manage nationally significant natural, 
historical, and cultural resources. NOAA manages 13 national marine 
sanctuaries created to (1) improve the conservation, understanding, 
management, and sustainable use of marine resources; (2) enhance public 
awareness, understanding, and appreciation of the marine environment; 
and (3) maintain for future generations the habitat, and ecological 
services, of the natural assemblage of living resources in these areas.
    For more than 40 years, NOAA's Office of National Marine 
Sanctuaries has worked to protect special places in America's ocean and 
Great Lakes waters, from the site of a single Civil War shipwreck to a 
vast expanse of ocean surrounding remote coral reefs and tiny atolls. 
From Washington State to the Florida Keys, and from Lake Huron to 
American Samoa, NOAA seeks to preserve scenic beauty, biodiversity, 
historical connections, and economic productivity of these precious 
underwater treasures. A healthy ocean is the basis for thriving 
recreation, tourism and commercial activities that drive coastal 
economies.
    The NMSA authorizes the Secretary of Commerce, through NOAA, to 
identify, designate, and protect areas of the marine and Great Lakes 
environment with special national significance due to their 
conservation, recreational, ecological, historical, cultural, 
archeological, educational, or esthetic qualities. Sanctuaries are 
designated by NOAA under the NMSA or through congressional action and 
are managed by NOAA using the authorities granted through the NMSA. 
Currently, 10 sanctuaries have been designated by NOAA and 3 have been 
designated by Congress (Stellwagen Bank, Hawaiian Islands Humpback 
Whale, and Florida Keys National Marine Sanctuaries).
    The sanctuary designation process is described in the NMSA and has 
four principal steps:

  1.  Scoping: NOAA announces its intent to designate a new national 
            marine sanctuary and asks the public for input on potential 
            boundaries, resources that could be protected, issues NOAA 
            should consider, and any information they believe should be 
            included in the resource analysis.

  2.  Sanctuary Proposal: NOAA prepares draft designation documents 
            including a draft management plan and a draft environmental 
            impact statement under the National Environmental Policy 
            Act that analyzes a range of alternatives, proposed 
            regulations, and proposed boundaries. NOAA may also form an 
            advisory council to help inform the proposal and focus 
            stakeholder participation.

  3.  Public Review: The public, agency partners, tribes, and other 
            stakeholders provide input on the draft documents. NOAA 
            considers all input and determines appropriate changes.

  4.  Sanctuary Designation: NOAA makes a final decision and prepares 
            final documents.

    In 2014, NOAA established a new sanctuary nomination process where 
a collection of interested individuals or groups can identify and 
recommend special areas of the marine or Great Lakes environment for 
possible designation as a national marine sanctuary. NOAA evaluates the 
strength of a nomination based on the information provided for the 
national significance criteria and management considerations, as listed 
and described in the Sanctuary Nomination Process June 2014 final rule 
(79 FR 33851). The nomination should demonstrate broad support from a 
variety of stakeholders and interested parties and identify the 
specific goal or intent for designation. Once NOAA accepts the 
nomination of the sanctuary to the inventory, NOAA can begin the 
process to designate the sanctuary at any time. In general from 
identification of a potential sanctuary to its designation takes 2 to 4 
years.
    While the primary objective of the NMSA is ecosystem- and science-
based resource protection, NOAA also facilitates compatible use of all 
public and private users in sanctuaries in a manner that is adaptive 
over time. To accomplish this, NOAA prepares terms of designation for 
every sanctuary that describe the activities that NOAA may regulate, 
regulations that describe what actions are prohibited or restricted, 
and procedures that allow permits to be issued for certain activities. 
Sanctuary regulations are enforced by NOAA and its state and Federal 
partners. The NMSA also provides NOAA the authority to recover monetary 
damages for injury to sanctuary resources that are used for their 
restoration and recovery.
    The NMSA requires NOAA to manage national marine sanctuaries 
through an extensive public process, local community engagement, 
stakeholder involvement, and citizen participation. NOAA establishes 
local offices to manage each national marine sanctuary with staff who 
live in the community, and management plans are developed, implemented, 
reviewed, and revised for each sanctuary site, taking into account the 
specific needs and circumstances of that area. These management plans 
focus on resource protection, science, research, education, and 
outreach. The NMSA also calls for NOAA to establish community-based 
National Marine Sanctuary Advisory Councils, comprised of a diversity 
of interests (e.g., recreational fishers, divers, teachers, boaters, 
scientists, and elected officials) at each sanctuary to provide advice 
and recommendations to the superintendent of the site on issues 
including management, science, service, and stewardship.
                       marine national monuments
    The authority to establish a national monument was provided to the 
President by Congress. The Antiquities Act of 1906 (16 U.S.C. 431-433) 
was the first U.S. law to provide general protection for objects of 
historic or scientific interest on Federal lands. It authorizes the 
President to proclaim national monuments on Federal lands that contain 
``historic landmarks, historic and prehistoric structures, and other 
objects of historic or scientific interest.'' Sixteen presidents of 
both parties have used the Act's authority more than 100 times to 
protect unique natural and historic resources and places. The 
Antiquities Act has been used to designate as national monuments such 
national treasures as the Grand Canyon, the C&O Canal, and the Statue 
of Liberty.
    The Antiquities Act has been used mostly to protect terrestrial 
resources, but has been used to protect special areas of the marine 
environment as well. President George W. Bush established four marine 
national monuments for which NOAA has management responsibilities in 
partnership with other agencies. These are Papahanaumokuakea Marine 
National Monument (PMNM) in the Northwest Hawaiian Islands; Marianas 
Trench Marine National Monument in the Mariana Archipelago; Rose Atoll 
Marine National Monument in American Samoa; and the Pacific Remote 
Island Marine National Monument in the south-central Pacific Ocean, 
recently expanded by President Obama.
    The President establishes both terrestrial and marine national 
monuments by executing a Presidential Proclamation as authorized under 
the Antiquities Act. The process for establishing a monument is in the 
President's discretion. Through the America's Great Outdoors 
Initiative, which involved public listening sessions in every state, 
this Administration has recommended taking a transparent and open 
approach to new national monument designations tailored to engaging 
local, state, and national interests.
    Often ideas for areas to be designated are proposed to the 
Administration by local and state elected officials, nongovernmental 
organizations, or other citizen groups. The four existing marine 
national monuments each had a level of public engagement prior to their 
establishment or expansion. For example, the PMNM was established after 
public and stakeholder engagement helped develop a proposal for a 
national marine sanctuary. Another example: in 2014 President Obama 
indicated that his administration would consider how it might expand 
protections near the Pacific Remote Islands Marine National Monument in 
the south-central Pacific Ocean. Following that announcement, the 
Departments of Commerce and the Interior held a public meeting in the 
region, convened numerous smaller meetings with affected stakeholders, 
and accepted written public comments from all interested parties.
    The President's Proclamation generally spells out how a marine 
national monument will be managed, including which agency or agencies 
will have management responsibility. To date, the four marine national 
monuments have been managed in partnership among the Department of the 
Interior (DOI) and NOAA, with other Federal and state partners that 
have existing authority or jurisdiction. For example, NOAA, DOI, and 
the state of Hawaii co-manage the PMNM. This monument has a Monument 
Management Board with representatives from the Federal and state 
agencies involved.
    As with marine sanctuaries, the public also has had opportunity to 
engage as part of the process to development management plans for the 
long-term stewardship of the designated monument. All marine national 
monument proclamations have required the development of a monument 
management plan. The structure and content of management plans for each 
marine national monument will vary because each monument is unique with 
regard to underlying protections, agencies involved, and physical and 
environmental conditions. Draft plans and associated National 
Environmental Policy Act environmental documents are provided for 
public input and developed by NOAA and DOI in coordination with other 
relevant Federal and state agencies. For example, the proclamation 
establishing the Marianas Trench Marine National Monument required the 
establishment of an Advisory Committee including representatives from 
the Commonwealth of the Northern Mariana Islands (CNMI). DOI, NOAA, and 
the CNMI are now drafting a management plan that will soon be made 
available for public comment.
    Management plans for these marine national monuments are intended 
to incorporate multiple objectives, and address activities such as 
fishing, takes of birds, and oil and gas or other development activity. 
Care has been taken to ensure the monuments do not compromise critical 
activities and exercises of the Armed Forces, and reflect due regard 
for the rights, freedoms, and lawful uses of the sea enjoyed by all 
nations under customary international law. NOAA and DOI use specific 
authorities to protect and manage marine monument resources and address 
threats to their protection. As a co-manager of living marine resources 
in the marine national monuments, NOAA has used its authority under 
several statutes--including the Magnuson-Stevens Fishery Conservation 
and Management Act, the Marine Mammal Protection Act, and the 
Endangered Species Act--to manage resources and objects to be 
protected.
    Presidents have used the Antiquities Act to protect landscapes, 
ocean ecosystems, and cultural resources. The four marine national 
monuments in the Pacific protect the abundant and diverse coral, fish, 
and seabird populations; facilitate exploration and scientific 
research; and promote public education regarding the value of these 
national places. By establishing these areas as marine national 
monuments, the President has ensured that these marine environments of 
significant scientific interest receive a high level of environmental 
protection for our and future generations.
     economic benefits of national marine sanctuaries and monuments
    In addition to preserving places of great ecological, historical, 
and scientific value, marine sanctuaries and national monuments can 
provide significant direct economic benefits for local and regional 
businesses. For example, across all the national marine sanctuaries, 
NOAA economists estimate about $4 billion annually is generated in 
local coastal and ocean dependent economies from diverse activities 
like fishing, research and recreation-tourist activities. From 
restaurants and hotels, to aquariums and kayak operators, the success 
of many businesses, millions of dollars in sales and thousands of jobs, 
directly depend on thriving resources that these areas protect and 
maintain.
    Sanctuaries and monuments also create education and outreach 
opportunities that link communities through innovative programs and 
help spread awareness of the ocean's connection to all of us. Further, 
they enable outreach to the broader community about the coastal 
environment and what they can do to be to good stewards of the marine 
environment.
                               conclusion
    In closing, NOAA is committed to building a stronger, more 
resilient future for America's communities, ecosystems and economy. A 
healthy ocean is the basis for thriving recreation, tourism and 
commercial activities that drive coastal economies, and for the many 
ecosystem services that protect our planet. National marine sanctuaries 
and marine national monuments are based on different authorities, 
processes, and management--each has its place within the suite of 
authorities provided to protect our most cherished historical, 
scientific, and environmental resources.
    Thank you again for the opportunity to discuss national marine 
sanctuaries and marine national monuments.

                                 ______
                                 

    Questions Submitted for the Record to Dr. Holly Bamford, NOAA's 
                         National Ocean Service
     Questions Submitted by the Hon. Gregorio Kilili Camacho Sablan

    Question 1. Can you please provide a brief description of NOAA's 
plans to support the Marianas Trench Monument in the upcoming fiscal 
year?

    Answer. NOAA Fisheries' Fiscal Year 2016 President's Request 
includes approximately $3.0 million for activities in the Pacific 
Marine National Monuments, similar to Fiscal Year 2015 enacted levels. 
Activities planned for the Marianas Trench Marine National Monument 
(MNM) in 2016 include completion of the Monument Management Plan 
(currently in review by the CNMI government) and holding public 
meetings in Guam and CNMI.

    On the research side, through a NOAA-wide effort, the NOAA Ship 
Okeanos Explorer will continue its exploration of the Pacific 
Monuments, traveling to conduct mapping and ROV dives in the Mariana 
Archipelago for 3 months. Planning efforts for the trip to include 
discussions with local researchers and government officials are being 
initiated. Through telepresence technology, scientists around the world 
are able to actively participate in and provide input to expedition. 
Educators and the public can also view the real time video feeds from 
the ship and ROVs using a standard internet connection. Ship tours are 
planned during port calls in Guam. NOAA is considering the feasibility 
of additional tours in Saipan. The Okeanos Explorer work follows the 
successful ``Why do we Explore the Marianas Trench'' educator workshop 
held in CNMI and Guam last year.

    Question 2. Today's witnesses have stressed the importance of 
fishery management in the role of conservation. What other 
considerations are critical to sound ocean conservation?

    Answer. Our Nation relies on healthy and resilient ocean and 
coastal ecosystems. The ocean, our coasts, and the Great Lakes deeply 
impact the lives of all Americans, whether living and working in the 
country's heartland or along its shores. America's rich and productive 
coastal regions and waters support tens of millions of jobs and 
contribute trillions of dollars to the national economy each year. They 
also host a growing number of important activities including 
recreation, science, commerce, transportation, energy development, and 
national security as well as providing a wealth of natural resources 
and ecological benefits.

    Ocean conservation efforts can account for these many ocean 
activities holistically through principles of ecosystem-based 
management and adaptive management. Ecosystem-based management 
integrates ecological, social, economic, commerce, health, and security 
goals, and recognizes both that humans are key components of ecosystems 
as well as the importance of healthy ecosystems to human welfare. 
Adaptive management calls for routine reassessment of management 
actions to allow for better informed and improved future decisions in a 
coordinated and collaborative approach.

            Questions Submitted by the Hon. Raul M. Grijalva

    Question 1. During your testimony, you indicated that there are 
monuments and sanctuaries that allow fishing. Is that accurate? Please 
provide a list of the areas and percentages of each marine national 
monument and national marine sanctuary that is open to commercial 
fishing and to recreational fishing, along with any specific fishing 
restrictions in those areas.
    Answer. The answer varies by monument, as the relevant Presidential 
Proclamations dictates the specific activities allowed or restricted 
for the purposes of protecting resources in the monument. The 
Antiquities Act requires that a designation to protect objects assures 
that the objects are protected. Based on that information, some types 
of restrictions have led to a ban on mining, drilling for oil or gas, 
and closures to commercial fishing.


------------------------------------------------------------------------
                                                        Percent Open to
                   Area of Monument   Percent Open to    Recreational/
    Monuments           (sq mi)         Commercial        Traditional
                                          Fishing           Fishing
------------------------------------------------------------------------
Papahanaumokuakea  139,797.........  0%..............  0%
 , HI
------------------------------------------------------------------------
Pacific Remote     370,000.........  0%..............  100%
 Island Areas      sq nmi..........                    Refuge areas 0-12
                                                        nm in the
                                                        Monument are off-
                                                        limits to
                                                        fishing at this
                                                        time, with the
                                                        exception of
                                                        Palmyra
                                                        (recreational
                                                        fishing) and
                                                        Wake (USAF
                                                        subsistence/
                                                        recreational
                                                        fishing)
------------------------------------------------------------------------
Marianas Trench--  96,714..........  0%..............  100%
 Island Unit
------------------------------------------------------------------------
Rose Atoll--No-    13,451..........  0%..............  0% (within 12 nm
 take area                                              of Atoll)
 (within 12 nmi                                        100% (from 12-50
 of Atoll)                                              nm)
------------------------------------------------------------------------


    Likewise, fishing regulations vary by sanctuary, with the majority 
of the national marine sanctuaries allowing various forms of fishing. 
The table below specifies the fishing restrictions under the National 
Marine Sanctuaries Act regulations that occur within the 13 national 
marine sanctuaries:


------------------------------------------------------------------------
                        Area of
    Site Name        Sanctuary (sq    Percent Open to       Fishing
                          mi)            Fishing*         Restrictions
------------------------------------------------------------------------
Channel Islands    1,470...........  78.37%..........  11 marine
 National Marine                                        reserves where
 Sanctuary                                              all take and
                                                        harvest is
                                                        prohibited, and
                                                        2 marine
                                                        conservation
                                                        areas that allow
                                                        limited take of
                                                        lobster and
                                                        pelagic fish.
------------------------------------------------------------------------
Cordell Bank       1,286...........  100%............  None
 National Marine
 Sanctuary
------------------------------------------------------------------------
Florida Keys       3,840...........  94.30%..........  Ecological
 National Marine                                        Reserves,
 Sanctuary                                              Sanctuary
                                                        Preservation
                                                        Areas and
                                                        Special-use
                                                        Research Only
                                                        Areas where all
                                                        fishing is
                                                        prohibited. An
                                                        additional 145
                                                        sq mi (Key Largo
                                                        and Looe Key
                                                        management
                                                        areas) allows
                                                        all fishing
                                                        except damaging
                                                        coral,
                                                        spearfishing,
                                                        bottom gear and
                                                        taking tropical
                                                        fish.
------------------------------------------------------------------------
Flower Garden      56..............  100%............  Hook-and-line is
 Banks National                                         the only method
 Marine Sanctuary                                       of fishing
                                                        allowed.
------------------------------------------------------------------------
Gray's Reef        22..............  62.40%..........  Research Only
 National Marine                                        Area where all
 Sanctuary                                              fishing is
                                                        prohibited. Hook-
                                                        and-line is the
                                                        only method of
                                                        fishing allowed
                                                        in the rest of
                                                        the sanctuary.
------------------------------------------------------------------------
Greater            3,295...........  100%............  None
 Farallones
 National Marine
 Sanctuary
------------------------------------------------------------------------
Hawaiian Islands   1,615...........  100%............  None
 Humpback Whale
 National Marine
 Sanctuary
------------------------------------------------------------------------
Monitor National   1...............  100%............  None
 Marine Sanctuary
------------------------------------------------------------------------
Monterey Bay       6,100...........  100%............  Fishing below a
 National Marine                                        depth of 3,000
 Sanctuary                                              ft in the
                                                        Davidson
                                                        Seamount
                                                        Management Zone
                                                        is prohibited.
------------------------------------------------------------------------
National Marine    13,581..........  99.99%..........  All fishing is
 Sanctuary of                                           prohibited in
 American Samoa                                         Fagatele Bay. In
                                                        Aunu'u Unit Zone
                                                        A, fishermen
                                                        must notify the
                                                        sanctuary prior
                                                        to fishing. In
                                                        Aunu'u Unit B,
                                                        fishing is
                                                        allowed except
                                                        for bottom-
                                                        dwelling
                                                        species. In the
                                                        rest of the
                                                        sanctuary,
                                                        fishing is
                                                        allowed, except
                                                        for use of
                                                        poisons,
                                                        explosives,
                                                        spearguns, fixed
                                                        nets and bottom
                                                        trawling.
------------------------------------------------------------------------
Olympic Coast      3,193...........  100%............  None
 National Marine
 Sanctuary
------------------------------------------------------------------------
Stellwagen Bank    842.............  100%............  None
 National Marine
 Sanctuary
------------------------------------------------------------------------
Thunder Bay        4,300...........  100%............  None
 National Marine
 Sanctuary
------------------------------------------------------------------------
* Any form of fishing is allowed. Total percent is calculated by taking
  the total area of the sanctuary and subtracting the no-take area.


    Question 2. During the hearing, it was insinuated that there was no 
fishing, commercial or recreational, allowed in the Channel Islands 
National Marine Sanctuary. Is that accurate? Please provide a summary 
of the actual fishing regulations in the Channel Islands National 
Marine Sanctuary.

    Answer. Fishing is allowed within the Channel Islands national 
Marine Sanctuary (CINMS); in fact, it is has some of the richest 
commercial \1\ and recreational \2\ fishing on the west coast.
---------------------------------------------------------------------------
    \1\ Commercial fishing in the sanctuary generates nearly $27.3 
million in harvest revenue each year. This in turn creates $45.3 
million in output, $30.9 in value added, $27.8 million in total income 
and 659 full- and part-time jobs.
    \2\ Recreational fishing within the sanctuary generated roughly 250 
jobs annually from 2010 to 2012. Each year from 2010 through 2012, the 
CINMS local economies saw, on average, an additional $11.0 million in 
income as a result of recreational fishing in the sanctuary.

    Fishing in state waters (0 to 3 nautical miles) of the sanctuary is 
managed by the California Department of Fish and Wildlife, while NOAA 
Fisheries manages Federal water fisheries (3 to 200 nautical miles). 
The commercial and recreational harvesting of fish, kelp and 
invertebrates is permitted in nearly 80 percent of the sanctuary waters 
(0 to 6 nautical miles) around the northern Channel Islands--see figure 
below. Just over 20 percent of the sanctuary is designated as marine 
reserves or conservation areas to protect the diversity and abundance 
of marine life, the habitats they depend on, and the integrity of 
marine ecosystems. The state of California established this network of 
marine reserves and conservation areas in 2003 and NOAA extended it 
into Federal waters in 2006 and 2007, respectively. The network 
includes 11 marine reserves where all fishing and harvest is 
prohibited, and 2 marine conservation areas that allow limited take of 
---------------------------------------------------------------------------
lobster and pelagic fish.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Source: Office of National Marine Sanctuaries Socioeconomic 
Research and Monitoring Program

    Question 3. In your testimony, you note that the establishment and 
expansion of all of the marine national monuments designated to date 
included a public engagement process. Will you please describe those 
processes? Please provide a list of public engagement initiatives 
(including location, dates and estimated number of people reached) that 
were conducted before the designation of each marine national monument.

    Answer. Although no public process is required under the 
Antiquities Act, designation of each of the 2009 monuments was preceded 
by a series of public meetings. In American Samoa, the Governor 
supported the marine national monument designation for Rose Atoll and 
2-3 public meetings were held by the Council on Environmental Quality 
(CEQ). For the Marianas Trench Marine National Monument, CEQ and the 
PEW Research Center coordinated many public meetings in the region (PEW 
reports it held over 100 meetings in open forums). No public meetings 
were specifically held on the 2009 designation of the Pacific Remote 
Islands Marine National Monument, although it was discussed in other 
forums.

    On August 11, 2014, NOAA held a Town Hall in Honolulu, Hawaii to 
discuss the expansion of the Pacific Remote Islands Marine National 
Monument. Approximately 300 people from various fishing groups and NGOs 
attended and over 50 people commented at the public meeting. In 
addition, NOAA received over 170,000 email comments. Discussion of the 
monument proposals also occurred during meetings of the Western Pacific 
Fisheries Management Council, which are open to the public.

    NOAA held a Town Hall in Providence, Rhode Island on September 15, 
2015 to discuss possible conservation protections in New England. Over 
200 people from various fishing groups and NGOs attended and 
approximately 60 people commented at the public meeting. To date, NOAA 
has received over 150,000 email comments and the comment period remains 
open.

    Question 4. We touched upon the impacts of climate change during 
the hearing, but can you expand on the importance of habitat protection 
to the resilience of ocean and coastal resources in the face of climate 
change? How does permanently protecting diverse marine ecosystems help 
build resilience to climate change?

    Answer. Climate change adds an additional level of stress to marine 
ecosystems, which already may be affected by local and regional impacts 
such as artificial shoreline modification, habitat loss, land-based 
pollution, and historical overfishing. Climate change impacts from sea 
level rise, ocean warming, changes in oceanic circulation, ecosystem/
biome shifts, and ocean acidification will compound problems that 
already degrade ocean and coastal ecosystems.

    Marine protected areas (MPAs) provide a tool to restore, preserve, 
and protect the ecological integrity and resilience of ocean and 
coastal ecosystems so they can withstand the additional stress of 
climate change. Healthy ecosystems will be more resilient to ocean 
warming, sea level rise, extreme weather events, and other climate 
change impacts. To help maintain the health of the marine environment, 
the U.S. Global Change Research Program endorses increasing the 
resilience of MPAs by managing other human-caused stressors that 
degrade ecosystems, and by protecting key functional groups of marine 
species.

    The long-term, place-based nature of MPAs helps to mitigate the 
impacts of climate change by providing a focal area for management and 
science to reduce local and regional stressors, monitor current 
conditions and changes over time, engage the public, and implement 
adaptive, flexible management of ecosystems and resources. 
Collectively, these efforts serve to enhance the effectiveness of MPAs 
and thereby enable these areas to continue supporting the communities 
that rely on them.

    MPAs that connect or are located near each other ensure diverse 
ocean ecosystems and living resources are protected. This provides 
broader ecological and economic resilience when localized climate 
change-related impacts occur.

    Faced with significant uncertainty about where, when and which 
species, habitats, and ecosystems are most vulnerable and likely to 
change, MPAs can be designed to reduce the risk of catastrophic 
ecological and economic loss due to the more extreme impacts of climate 
change by providing protection for as much diversity as possible, and 
for replication of specific species, habitats, or ecosystems. MPAs can 
be designed and managed to help reduce the ecological and socioeconomic 
risk of losing key species and habitats.

    By reducing nonclimate stressors on the environment, providing 
protection to those coastal and marine resources most at risk, and 
reducing risk in the face of uncertainty, MPAs can foster the 
resilience and health of marine ecosystems in order to improve their 
ability to resist and recover from the impacts of climate change in the 
ocean and directly contribute to public health, safety, and economic 
welfare of coastal communities.

    In conclusion, habitat protection through MPAs and networks of MPAs 
are valuable tools that, with proper management, can help buffer 
impacts, create climate change refugia, and sustain ecologically, 
culturally, historically, socially, and economically valuable coastal 
and marine resources throughout the Nation's waters and beyond.

    Question 5. Section 2 of NEPA states that: ``The purposes of this 
Act are: To declare a national policy which will encourage productive 
and enjoyable harmony between man and his environment; to promote 
efforts which will prevent or eliminate damage to the environment and 
biosphere and stimulate the health and welfare of man; to enrich the 
understanding of the ecological systems and natural resources important 
to the Nation; and to establish a Council on Environmental Quality.'' 
Is NEPA supposed to be used as a tool to slow down conservation work? 
Please describe how NEPA relates to monument designations.

    Answer. NEPA is not intended to slow down conservation work. NEPA 
is intended to ensure that Federal agencies act as responsible stewards 
of America's vast natural resources while adequately reviewing all 
options. NEPA seeks to balance environmental concerns with the social, 
economic, and other requirements of present and future generations of 
Americans. State and local governments, concerned private and public 
organizations, and individuals encouraged Federal agencies to work in 
partnership; NEPA endeavors to reconcile the inherent tension between 
the rapidly changing world and its finite natural resources.

    The Presidential Proclamation that implements a monument is not 
subject to NEPA or The Administrative Procedure Act. However, the 
Monument Management Plan is analyzed under NEPA prior to being 
finalized. Any other Federal actions proposed to occur within the 
monument would also be assessed.


                                 ______
                                 

    Dr. Fleming. Thank you, Dr. Bamford.
    I now recognize Dr. Rosenberg for 5 minutes.

 STATEMENT OF ANDREW A. ROSENBERG, Ph.D., DIRECTOR, CENTER FOR 
   SCIENCE AND DEMOCRACY, UNION OF CONCERNED SCIENTISTS, TWO 
            BATTLE SQUARE, CAMBRIDGE, MASSACHUSETTS

    Dr. Rosenberg. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee.
    I appreciate the opportunity to testify today to discuss 
the importance of marine national monuments.
    I am Andrew Rosenberg, Director of the Center for Science 
and Democracy at the Union of Concerned Scientists. However, I 
am testifying here today in my personal capacity as a marine 
scientist. For the past 30 years, I have worked in marine 
ecology, fishery science, and ocean policy in academia and 
government. I am a former Northeast Regional Administrator for 
the National Marine Fisheries Service, Deputy Director of the 
National Marine Fisheries Service, and former Dean of Life 
Sciences and Agriculture at the University of New Hampshire.
    The idea of marine national monuments makes sense to me. 
Some features, such as seamounts, underwater canyons, and 
ledges, are unique oceanographic features supporting ecosystems 
of high biological diversity. As such, they are important 
public trust resources for the Nation as part of our natural 
heritage.
    In addition, these ecosystems are important for supporting 
marine life in surrounding areas. They contribute so-called 
ecosystem services. These are functions of the ecosystem that 
directly support human well-being from fisheries, as we have 
already heard, but also natural products, genetic resources due 
to the biodiversity, and resilience to the ongoing effects of 
climate change.
    The New England seamounts, ledges, and canyons are a 
critical part of the large marine ecosystem of the northeast 
United States. These are the only seamounts in U.S. Atlantic 
waters. Several outstanding U.S. ocean sciences research 
organizations and universities have ongoing studies of the New 
England seamounts, Cashes Ledge, and the deep canyons because 
of their important role in the ecology of the entire region. In 
fact, one is even named Oceanographer's Canyon.
    Life forms that live in the deep sea are most often slow 
growing and slow to reproduce, with very long life spans. This 
means that they are highly vulnerable to both environmental 
changes and human exploitation. Simply put, they can be very 
rapidly overexploited and very slow to recover once damaged.
    There are numerous examples around the globe of newly 
discovered resources, or often new markets for products from 
known deep sea resources, attracting a boom of escalating 
fishing and a rapid bust due to overexploitation or a boom of 
other kinds of exploitive activities, followed by very slow or 
no real recovery. In other words, if human impacts on deep sea 
resources are to be managed, we likely only have one chance to 
get it right for these kinds of deep sea, slow-growing 
resources.
    Creating a marine national monument containing seamounts, 
ledges, and canyons in offshore areas is a sensible step for 
conservation. It would create a marine protected area, which is 
a well-developed and well-studied management tool for ocean 
resources, that restricts damaging activities within a monument 
area.
    Area protections have been shown to be effective if they 
truly limit or minimize exploitation and are large enough to 
provide real protection for biological resources. The Northwest 
Hawaiian Islands National Monument, that we have already heard 
about, and other large enclosed areas in the Western Pacific, 
Indian Ocean, and North Atlantic are all cases in point.
    The large closed areas in New England have led to a 
recovery of some of the important fishery resources, including 
scallops and some groundfish, as well as habitat that will pay 
dividends in the future.
    Many published peer-reviewed studies, including my own, 
have shown that MPAs can be an effective management tool, 
particularly when coupled with other measures that control 
exploitation.
    One of the most important attributes of MPAs is that they 
provide a hedge against rapid increases in fishing pressure or 
the impacts of other activities, including the ongoing effects 
of climate change. Protecting an intact, significant portion of 
an ecosystem helps ensure that other impacts will not have as 
potentially devastating effects as they might have with no 
protected area in place.
    For example, there is good scientific evidence that parts 
of an ecosystem that are largely intact are far more resilient 
to the effects of changing climate than those that are already 
heavily exploited. As a matter of the ecology, the marine 
resources of the United States, the seamounts, ledges, and 
canyons are unique and they play an important role in the 
productivity of our oceans.
    As a matter of policy, MPAs are well-developed management 
tools that can be applied to good effect, reasonably and simply 
enforced. MPAs can provide real benefits to the Nation, and it 
is important to recognize in this instance putting a protected 
area in place before extensive exploitation is underway is far 
easier, more efficient, and less disruptive than waiting to try 
to conserve resources once fishing or other activities have 
already ramped up very substantially.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
share my views, and I would be happy to answer questions.
    [The prepared statement of Dr. Rosenberg follows:]
   Prepared Statement of Andrew A. Rosenberg, Ph.D., Director of the 
    Center for Science and Democracy, Union of Concerned Scientists
    Chairman Fleming, Ranking Member Huffman, and members of the 
committee, thank you for the opportunity to testify today to discuss 
the importance of marine national monuments. I am Dr. Andrew Rosenberg, 
Director of the Center for Science and Democracy at the Union of 
Concerned Scientists. However, I am testifying here today in my 
personal capacity as a marine scientist. For the past 30 years, I 
worked in marine ecology, fisheries, and ocean policy in academia and 
government. I am formerly the Deputy Director of NOAA's National Marine 
Fisheries Service and also the former Dean of Life Sciences and 
Agriculture at the University of New Hampshire.
    The idea of marine national monuments makes sense to me. Some 
marine features such as seamounts and underwater canyons and ledges are 
unique oceanographic features supporting ecosystems of high biological 
diversity. As such, they are important public trust resources for the 
Nation as part of our natural heritage. In addition, these ecosystems 
are important for supporting the marine life in surrounding areas. They 
contribute so-called ecosystem services. These are functions of the 
ecosystem that directly support human well-being from fisheries, to 
natural products and genetic resources, to resilience to the ongoing 
effects of climate change.
    The New England seamounts, ledges and canyons are a critical part 
of the large marine ecosystem of the northeastern United States. This 
seamount chain contains the only seamounts in U.S. Atlantic waters, 
highlighting their uniqueness. Several outstanding U.S. ocean sciences 
research organizations and universities have ongoing studies of the New 
England seamounts, Cashes Ledge, and the deep canyons because of their 
important role in the ecology of the entire region.
    Life forms that live in the deep sea are most often slow growing 
and slow to reproduce, while often have very long life spans. This 
means that they are also highly vulnerable to both environmental 
changes and human exploitation. Simply put, they can be very rapidly 
overexploited and very slow to recover once damaged. There are numerous 
examples around the globe of newly discovered resources, or more often 
new markets for products from deep sea resources, attracting a boom of 
escalating fishing and a rapid bust due to overexploitation, followed 
by very slow or no real recovery. In other words, if human impacts on 
deep sea resources are to be managed, we may only have one chance to 
get it right.
    Creating a marine national monument containing seamounts, ledges 
and canyons in offshore areas is a sensible step for conservation of 
these areas. It would create a Marine Protected Area, or MPA, which is 
a well-developed and studied management tool for ocean resources that 
restrict damaging activities within the monument area. Area protections 
have been shown to be effective if they truly limit or minimize 
exploitation and are large enough to provide real protection for 
biological resources. The Northwest Hawaiian Islands National Monument 
created by President Bush is a case in point. Other large closed areas 
in the western Pacific, Indian Ocean and North Atlantic are also in 
place. The large closed areas in New England have led to the recovery, 
of some important fisheries including scallops and some groundfish. 
Many published, peer reviewed studies, including my own, have shown 
that MPAs can be an effective management tool, particularly when 
coupled with other measures that control exploitation.
    One of the most important attributes of MPAs is that they provide a 
``hedge'' against rapid increases in fishing pressure or the impacts of 
other activities including the ongoing effects of a changing climate. 
Protecting an intact, significant portion of an ecosystem helps ensure 
that other impacts won't have as potentially devastating effects as 
they might have if no protected area existed. For example, there is 
good scientific evidence that parts of an ecosystem that are largely 
intact, are far more resilient to the effects of a changing climate 
than those that are already heavily exploited.
    As a matter of the ecology of the marine resources of the United 
States, these sea mounts, ledges and canyons are unique and play an 
important role in the productivity of our oceans. As a matter of 
policy, MPAs are well developed management tools that can be applied to 
good effect, reasonably and simply enforced. MPAs can provide real 
benefits to the Nation. It is important to recognize in this instance, 
putting a protected area in place before extensive exploitation is 
underway is far easier, more efficient and less disruptive than waiting 
to try to conserve resources once fishing or other actions are already 
ramping up.
    Mr. Chairman, I thank you for the opportunity to share my views and 
I would be happy to answer any questions.

                                 ______
                                 

Questions Submitted for the Record to Dr. Andrew A. Rosenberg, Union of 
                          Concerned Scientists

Dr. Rosenberg did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

     Questions Submitted by the Hon. Gregorio Kilili Camacho Sablan

    Question 1. Since the Antiquities Act was passed, Democratic 
presidents have dedicated 98 national monuments and Republican 
presidents have designated 82. That's a fairly even split.

    a. Does the designation of national monuments seem to you like it 
should be a partisan issue?

    b. I know that the ecology of the marine environment is very 
complicated, but is there general consensus in the scientific community 
as to the utility of having Marine Protected Areas, both for 
conservation and for increasing the sustainable production of 
resources?

            Questions Submitted by the Hon. Raul M. Grijalva

    Question 1. I know that the ecology of the marine environment is 
very complicated, but is there general consensus in the scientific 
community as to the utility of having Marine Protected Areas, both for 
conservation and for increasing the sustainable production of 
resources?

    Question 2. Are marine national monuments, and MPAs in general, 
important to protecting the biodiversity both of the region and of the 
oceans as a whole?

                                 ______
                                 

    Dr. Fleming. Thank you, Dr. Rosenberg.
    I now recognize Mr. Moore for his testimony.

STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, WEST COAST SEAFOOD 
            PROCESSORS ASSOCIATION, PORTLAND, OREGON

    Mr. Moore. Thank you, Mr. Chairman, Mr. Ranking Member, 
members of the subcommittee. I appreciate the opportunity to 
appear before you today.
    For the record, my name is Rod Moore. I am the Executive 
Director of the West Coast Seafood Processors Association. Our 
Association represents commercial fishermen and shore-based, 
American-owned seafood processors and associated seafood 
businesses located in Washington, Oregon, and California. Our 
members also have operations located in Alaska, Arizona, 
Georgia, Hawaii, Nevada, Texas, and Utah.
    Our main objective is to assure the regular supply of 
sustainable seafood so we can provide healthy products to the 
consumer.
    Let me make one thing clear from the beginning: a well 
designed marine sanctuary is not a bad thing. Just as on land, 
there are special places in the ocean that deserve protection. 
Nobody wants to see trawlers trawling up pieces of the ``USS 
Monitor'' or a deep sea sport fisherman pulling up coral from 
Flower Garden Banks.
    However, there is a big difference between a marine 
sanctuary and a national marine monument. There is a process 
and there are criteria for establishing a sanctuary. To begin 
with, the process is locally driven. Under quote to the NOAA 
Web page, every nomination starts at the community level.
    While NOAA's concept of a community might not be the same 
as ours, there at least has to be a local nexus.
    NOAA then reviews the nomination against several criteria, 
including existing management regulations and against community 
support. Only if the proposed area passes muster, or at least 
the red face test, will it be placed on NOAA's list of 
nominated areas for consideration to be designated as a 
national marine sanctuary, which is an entirely separate 
process.
    Unfortunately, this process is not good enough for some 
people. We have seen public calls for the President to use his 
powers under the Antiquities Act to establish marine monuments 
off New England and Alaska. In the latter case, a nomination 
for a sanctuary was denied by NOAA. Undaunted, the Public 
Employees for Environmental Responsibility set up an online 
petition for which, as of last week, they had nearly 114,000 
supporters.
    Of course, that includes signatories from 28 foreign 
countries. In fact, there were more foreign signatories than 
there were from the state of Alaska, including a lone signature 
from the Lao Democratic People's Republic.
    In the former case, proponents did not even bother with the 
sanctuary nomination. They went directly to the monument 
petition route. They did this in spite of the fact that the New 
England Fishery Management Council was working on a fisheries 
habitat plan that would protect some of the same places that 
were covered in the petition.
    So why this rush to action when a perfectly good, workable, 
and science-based sanctuary nomination process is readily 
available? The obvious answer to our industry is that 
proponents wish to shut down most commercial fishing and 
control whatever commercial and sport fishing that is left.
    And this gets to the heart of the matter. Under the 
Antiquities Act, the President can withdraw whatever Federal 
lands he wants and have that withdrawal managed using any 
criteria he chooses. You don't like trawling? Poof, it is gone.
    The Antiquities Act provides no basis for learned 
discourse, no scientific, economic, or social analysis; it is 
whatever the President says it is.
    The use of the Antiquities Act to create marine national 
monuments is a true top-down, dictatorial approach, which is 
frequently championed by big bucks environmental groups and 
which the public, including the fishing community that is 
directly affected, has no voice.
    So what are the alternatives? The first, obviously, is by 
submitting a nomination through the sanctuary process.
    The second alternative, the one which I prefer, is to 
establish sensitive areas under the Magnuson-Stevens Act. And 
how well does this work? Well, in the West Coast it works 
pretty well. In 2005, the Pacific Fishery Management Council 
completed its review of EFH and HAPC areas; and in 2014, began 
its formal review of those areas.
    During this process, leaders in the fishing industry and 
the environmental community decided they had more to gain by 
working together than fighting with each other, so they 
established the Collaborative EFH Working Group. The 
Collaborative is working on a comprehensive plan of habitat 
protection and access to fisheries which, if adopted, will 
increase the permanent closed areas significantly, while 
recognizing that there are areas that are now closed but should 
be opened.
    Although one environmental group has bowed out of the 
process, and some fishermen are reluctant to trust those that 
remain, the majority of us have hope for the future.
    I learned last night a similar situation has occurred in 
the Mid-Atlantic Council which has won praise in the 
environmental community.
    Finally, a word about legislation pending before this 
committee and the House. The House has already passed H.R. 
1335, which among other things makes clear that the FCMA is the 
controlling legal statute in fisheries management. This will 
resolve such strangled legal interpretations like the one 
provided to the Pacific Management Council by NOAA's legal 
counsel: that the Council has jurisdiction over fishing and the 
ocean bottom, but does not have jurisdiction over the water 
column.
    Mr. Chairman, there is no doubt in my mind there are 
certain key areas in the ocean that need protection. The 
question is how best to do it. I think you would find that most 
rational people agree that protecting an area should be 
conducted only after scientific analysis and a true public 
process. The use of the Antiquities Act should not be allowed.
    Thank you.
    [The prepared statement of Mr. Moore follows:]
Prepared Statement of Rod Moore, Executive Director, West Coast Seafood 
                         Processors Association
    Mr. Chairman, Ranking Member, and members of the subcommittee, I 
appreciate the opportunity to appear before you today to discuss the 
potential implications of pending marine national monument designations 
and the role of the National Marine Sanctuary System. For the record, 
my name is Rod Moore and I serve as Executive Director of the West 
Coast Seafood Processors Association (WCSPA). Our Association 
represents commercial fishermen and shore-based, American-owned seafood 
processors and associated seafood businesses in Washington, Oregon, and 
California. Our members also have operations located in Alaska, 
Arizona, Georgia, Hawaii, Nevada, Texas, and Utah. Our main objective 
is to assure the regular supply of sustainable seafood so that we can 
provide healthy products to the consumer.
    Let me make one thing clear from the beginning: a well-designed 
marine sanctuary is not a bad thing. Just like on land, there are 
special places in the ocean with historic, cultural, or natural values 
that should be protected. Nobody wants to see trawlers operating on the 
site of the wreck of the U.S.S. MONITOR; nobody wants to see deep sea 
sport fishermen hauling up chunks of coral in the Flower Garden Banks. 
However, there is a big difference between a national marine sanctuary 
and a marine national monument.
    The National Marine Sanctuary System was established in 1972 and 
presently encompasses 12 properly created marine sanctuaries and 2 
marine monuments, one of which is identified and managed as a 
sanctuary. Reading through the history of the Sanctuary System (http://
sanctuaries.noaa.gov/about/history/welcome.html), one can see that the 
initial sanctuaries were chosen to celebrate and protect key historic 
and environmental values. As time went on, other agendas came into 
play. For example, let's look at the four sanctuaries--Cordell Bank, 
Greater Farallones, Monterey Bay, and Channel Islands--established off 
the coast of California. Visiting the Web sites for each of them, you 
discover that all four speak grandly--and vaguely--about protecting 
biological diversity, the importance of upwelling to biological 
productivity, and ecosystem values. In fact, they were originally 
designated as a way to prevent offshore oil and gas exploration. To 
quote a local fisherman on the history of the designation of the 
Monterey Bay NMS: ``The main public interest in creating a sanctuary 
was to add another layer of regulation to keep oil development out of 
the region.'' \1\
---------------------------------------------------------------------------
    \1\ Tom Roff in http://alliancefisheries.org/uploads/
BaitandSwitch0215.pdf.
---------------------------------------------------------------------------
    But still, there is a process and there are criteria for 
establishing a sanctuary. To begin with, the process is locally driven 
(``every nomination starts at the community level'' \2\). While NOAA's 
concept of a ``community'' may not be the same as ours, at least there 
has to be a local nexus. NOAA then reviews the nomination against 
several criteria--including existing management and regulations--and 
against community support/opposition. Only if the proposed area passes 
muster--or at least the red face test--will it be placed on NOAA's list 
of nominated areas for consideration to be designated as a national 
marine sanctuary, which is an entirely separate process. As of the 
beginning of September, five formal nominations have been submitted; 
three have been denied; one has been re-submitted; and two have been 
accepted. That is a reasonable track record.
---------------------------------------------------------------------------
    \2\ http://www.nominate.noaa.gov/.
---------------------------------------------------------------------------
    Unfortunately, that isn't good enough for some people. Recently, we 
have seen public calls for the President to use his powers under the 
Antiquities Act to establish marine monuments off New England and 
Alaska. In the latter case, a nomination for a sanctuary was denied by 
NOAA, citing three of the nominating criteria that it didn't meet.\3\ 
Undaunted, the Public Employees for Environmental Responsibility set up 
an on-line petition for which--as of last week--they had nearly 114,000 
supporters. Of course, that included signatories from 28 foreign 
countries; in fact there were more foreign signatories than there were 
from the state of Alaska (including a lone signature from the Lao 
Democratic People's Republic). In the former case, proponents didn't 
even bother with a sanctuary nomination; they went directly to the 
monument petition route. They did this in spite of the fact that the 
New England Fishery Management Council was working on a fisheries 
habitat plan that would protect some of the same places that are 
covered in the petition.
---------------------------------------------------------------------------
    \3\ http://www.nominate.noaa.gov/nominations/
aleutian_letter_012315.pdf.
---------------------------------------------------------------------------
    So why this rush to action when a perfectly good, workable and 
(mostly) science-based sanctuary nomination process is readily 
available? The obvious answer to our industry is that the proponents 
wish to shut down most commercial fishing and control whatever 
commercial and sport fishing will be left.
    And this gets to the heart of the matter. Under the Antiquities 
Act, the President can withdraw whatever Federal lands he wants and 
have that withdrawal managed using any criteria he chooses. Don't like 
trawling? Poof, it's gone. The Antiquities Act provides no basis for 
learned discourse, no scientific, economic, or social analysis; it is 
whatever the President says it is. The use of the Antiquities Act to 
create marine national monuments is a true top-down, dictatorial 
approach which is frequently championed by big-bucks environmental 
groups and in which the public--including the fishing community that is 
directly affected--has no voice.
    As to the value of the fisheries, it's difficult to say. Not having 
seen the direct proposals, nor being familiar with the particular 
fisheries in either case, I would hesitate to put a value on the loss 
to the Nation's--and the region's--economy if either of these areas was 
established by presidential fiat. But once again, that gets to my 
point: there is no analysis done, no deliberations, no meaningful 
public comments--the President simply signs his name to a piece of 
paper and 554,000 square nautical miles encompassing the Aleutian 
Islands, a large chunk of the Bering Sea, and southwest Alaska as far 
north as the Kuskokwim delta is off limits to whatever the President or 
his staff decides.
    So what are the alternatives if we want to protect habitat in a 
studied, sensible way? The first obviously is by submitting a 
nomination through the National Marine Sanctuary Process. The National 
Marine Sanctuaries Act provides a number of checks and balances to give 
the common man a fighting chance to shape the extent of sanctuary 
protection. I would submit it doesn't always work; for example, the 
Greater Farallones and Cordell Bank Sanctuaries off the coast of 
California were recently expanded by 2.5 times each through a simple 
regulatory process. However, to be fair the sanctuaries listened to the 
comments of the regulated communities--sport and commercial fishermen, 
ports, aircraft owners, etc.--in crafting with their final regulations.
    The second alternative, and the one I prefer, is to establish 
sensitive areas through the Magnuson-Stevens Fishery Conservation and 
Management Act (MSFCMA) process. The MSFCMA provides for the 
identification of essential fish habitat (EFH) and the creation of 
habitat areas of particular concern (HAPC). More importantly, the 
MSFCMA provides for a public process to evaluate and decide on what 
areas are going to be protected.
    How well does this work? Using the West Coast as an example, I 
think you will find that it works extremely well. In 2005, the Pacific 
Fishery Management Council (PFMC) completed work on its initial round 
of EFH and HAPC areas. These areas ranged from spots where there was no 
fishing allowed to spots where only non-bottom tending gear was 
allowed. These EFH/HAPC areas were in addition to the five national 
marine sanctuaries located off the West Coast, the Rockfish 
Conservation Area (RCA) which stretches from Mexico to Canada and is 
designed to allow depth-based protection for certain overfished 
species, and restrictions on the use of gear (e.g., no large footrope 
trawl gear shallower than the RCA). Combine these restrictions with the 
plethora of state-regulated nonfishing areas and you will find that the 
area left to fish in is quite limited.
    In 2014, the Council began its formal review of EFH pursuant to 
section 303(b)(2)(C) of the MSFCMA. During this process, leaders from 
the fishing industry and the environmental community decided they had 
more to gain by working together than fighting with each other so they 
established the Collaborative EFH Working Group. The Collaborative is 
working on a comprehensive plan of habitat protection and access to 
fisheries which if adopted will increase the permanent closed areas 
significantly while recognizing that there are areas which are now 
closed but could be opened. Although one environmental group has bowed 
out of the process and some fishermen are reluctant to trust those that 
remain, the majority of us have hope for the future.
    Finally, a word about legislation pending before this committee. 
The committee--and the House--have already passed H.R. 1335 which among 
other things makes clear that the MSFCMA is the controlling statute in 
fisheries management. This will resolve such strangled legal 
interpretations like the one provided to the PFMC by NOAA's legal 
counsel: that the Council has jurisdiction over fishing and the ocean 
bottom but doesn't have jurisdiction over the water column. By using 
the MSFCMA process to develop regulations instead of the NMSA and the 
Antiquities Act, we will ensure that at least when it comes to fishing 
there will be thoughtful and thorough analysis and the opportunity for 
public comment.
    The committee also has pending before it H.R. 330 and H.R. 332, 
both introduced by Mr. Young of Alaska. H.R. 330 is more general in 
that it prohibits the establishment of a marine national monument 
anywhere in the exclusive economic zone before certain steps are taken, 
including getting approval from the governors of affected states. H.R. 
332 is more specific in prohibiting the establishment of a marine 
national monument in the EEZ off Alaska. Both are good bills but we 
would prefer the passage of H.R. 330 because of its more general 
applicability.
    Mr. Chairman, there is no doubt in my mind that there are certain 
key areas in the ocean that need protection. The question is how best 
to do it. I think you would find that most rational people agree that 
protecting an area should be conducted only after scientific analysis 
and a true public process. The use of the Antiquities Act should not be 
allowed. I will be happy to answer any questions. Thank you.

                                 ______
                                 

    Dr. Fleming. OK. Thank you, Mr. Moore.
    Finally, Mr. Oliver, you are recognized for 5 minutes.

 STATEMENT OF CHRIS OLIVER, EXECUTIVE DIRECTOR, NORTH PACIFIC 
         FISHERY MANAGEMENT COUNCIL, ANCHORAGE, ALASKA

    Mr. Oliver. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to comment today.
    The North Pacific Council, one of eight regional fishery 
management councils established by the Magnuson-Stevens Act, 
manages the fisheries off of Alaska. A few statistics I would 
recite that many of you have heard before: the fisheries off 
Alaska provide over half the Nation's annual seafood 
production, are the largest employer in the state of Alaska, 
are second only to oil in revenues, and have sustained between 
3 and 5 billion pounds annually for over 30 years.
    A statistic you may not have heard: these fisheries occur 
within the 1.3 million square mile area managed by the Council 
of which about two-thirds, or 66 percent, is currently closed 
to all or some fishing activities. Many of these areas qualify 
as marine protected areas.
    Our ecosystem-based management approach is not focused on 
fisheries extraction alone, but includes explicit consideration 
of numerous related components of the ecosystem, including, 
importantly, the use of geographic/area closures to fishing 
activities.
    Closure areas in the North Pacific have been implemented 
for a variety of reasons, including essential fish habitat 
designation and a number of other reasons.
    I have attached maps to my written testimony which provide 
a visual representation of the scope and magnitude of some of 
these closed areas. I have listed a few of the most 
significant, including the U.S. Arctic EEZ, where nearly 
150,000 square miles is closed to all commercial fishing as a 
precautionary measure.
    Bottom trawl closures, developed to protect essential fish 
habitat, cover over 400,000 square nautical miles in the 
Northern Bering Sea and throughout the Aleutian Islands 
management area to protect pristine habitat and to `freeze the 
footprint' of existing bottom trawling.
    What all of these closed areas have in common is that they 
were all implemented based on careful consideration of 
scientific information, detailed analysis of biological, 
economic, and social impacts, and with extensive input from all 
affected or interested stakeholders, as well as the state of 
Alaska.
    The Council process, operating through the authorities of 
the Magnuson-Stevens Act and subject to approval by the 
Secretary of Commerce, has demonstrated that it is by far the 
best equipped to manage fishing activities within the U.S. EEZ, 
including identification and designation of areas appropriate 
for protection.
    This process includes outreach to, and input from, fishing 
industry participants, local coastal residents, and 
environmental organizations.
    I would like to specifically highlight the Aleutian Island 
habitat conservation area closures, which were established as 
part of the Council's essential fish habitat process mandated 
under the Magnuson-Stevens Act. This map illustrates the 
careful balancing achieved by this process and the necessary 
complexity resulting from consideration of numerous management 
objectives. This particular map shows the open and closed areas 
for only a single target species, Pacific cod.
    The result is that only about 6 percent, the areas that you 
can see in beige, only about 6 percent of the entire area 
remains open to bottom trawling. However, it is that 6 percent 
which was identified through the Council process as the most 
critical to the continued viability of economically and 
socially valuable commercial fishing activities in this area.
    Unilateral closure of this area would be unnecessarily 
devastating to the fishing industry, to numerous remote, 
coastal communities who are heavily dependent upon fishing 
activities in this region, and to the United States as a whole.
    This balancing act is not only possible through the Council 
process, it is precisely what the Council process was set up to 
do. Other councils around the region have implemented similar 
closures. I have listed some of those: off of New England; off 
of the Mid-Atlantic, where it was noted they recently closed an 
area more than 38,000 square miles, nearly the size of 
Virginia; and off the Pacific Coast by the Pacific Council, 
where they have already designated over 130,000 miles of EFH 
conservation area.
    A flip side story exists in the Western Pacific, Mr. 
Chairman. A stark contrast to these examples of deliberative, 
science-based closure designations can be found in the Western 
Pacific Region, where U.S. fishermen governed by the Magnuson-
Stevens Act and managed by the Western Pacific Council have 
lost about 30 percent, or 665,000 square miles, of fishing 
waters to monument and sanctuary designations, with little or 
no evidence of benefits.
    In summary, area closures to fishing or other activities 
are, indeed, an important natural resource management tool, and 
they have been applied extensively in the North Pacific and in 
other regions of the United States. Successful use of this 
resource management tool requires a careful balancing of 
multiple considerations, which is not possible under unilateral 
actions, such as monument designations.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Oliver follows:]
   Prepared Statement of Mr. Chris Oliver, Executive Director, North 
                   Pacific Fishery Management Council
                              introduction
    The North Pacific Council, one of eight regional fishery management 
councils established by the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act), manages fisheries in the U.S. 
EEZ off Alaska. Widely recognized as one of the most successfully 
managed fisheries in the world, the fisheries off Alaska provide over 
half of the Nation's annual seafood production, are the largest 
employer in the state of Alaska, are second only to oil in revenues, 
and have been sustained between 3 and 5 billion pounds annually for 
over 30 years. These fisheries occur within the 1.3 million square 
nautical mile area managed by the North Pacific Council, of which 
approximately two-thirds, or 66 percent, is closed to all or some 
fishing activities, many of which qualify as marine protected areas.
    Our ecosystem-based management approach is not focused on fisheries 
extraction alone, but includes explicit consideration of numerous 
related components of the marine ecosystem, including: seabird, Steller 
sea lion, and other marine mammals and protected species; predator-prey 
relationships and a ban on fishing for forage fish species; 
conservative exploitation rates for target species; aggressive bycatch 
reduction measures for species like halibut, salmon, and crab; 
comprehensive observer and catch accounting system; and, importantly, 
the use of geographic/area closures to fishing activities throughout 
the Gulf of Alaska, Bering Sea and Aleutian Islands, and into the 
Arctic. Management decisions, including designation of closed areas, 
are informed by detailed staff analyses, review by our Scientific and 
Statistical Committee, recommendations from our industry Advisory 
Panel, and input from a wide variety of stakeholders.
           development of closure areas in the north pacific
    Closure areas in the North Pacific have been implemented for a 
variety of reasons, including: essential fish habitat designation, or 
further designation as habitat areas of particular concern 
(particularly deep sea coral concentrations); specific protections for 
crab, halibut or rockfish nursery areas; minimizing bycatch of 
prohibited species; Steller sea lion protection (critical habitat or 
foraging areas); or simply as a precautionary measure in the face of 
limited information (such as the Arctic FMP). The attached maps provide 
a visual representation of the scope and magnitude of some of these 
closed areas. The attached table provides more descriptive details on 
major closed areas. A few of the most important examples include:

    <bullet> The U.S. Arctic EEZ--nearly 150,000 square nautical miles 
            closed to all commercial fishing as a precautionary 
            measure, pending better scientific information on resources 
            within that area.

    <bullet> Steller sea lion protection zones--over 73,000 square 
            nautical miles, throughout the Gulf of Alaska, Aleutian 
            Islands, and Bering Sea, closed to fishing for major sea 
            lion prey species (pollock, Pacific cod, and Atka Mackerel) 
            and/or to protect haulouts and rookeries.

    <bullet> Coral gardens and seamounts in the Gulf of Alaska and 
            Aleutian Islands--over 10,000 square nautical miles closed 
            to all bottom contact fishing gear, to protect deep sea 
            coral concentrations.

    <bullet> Bottom trawl closures developed to protect Essential Fish 
            Habitat (EFH)--over 400,000 square nautical miles in the 
            Northern Bering Sea and throughout the Aleutian Islands 
            management area closed to bottom trawling, to protect 
            pristine habitat and to `freeze the footprint' of existing 
            bottom trawling.

    <bullet> Crab protection zones--over 31,000 square nautical miles, 
            in the Gulf of Alaska, Bristol Bay, and Pribilof Islands, 
            closed to trawling to protect vulnerable crab habitat.

    <bullet> Southeast Alaska trawl closures--nearly 60,000 square 
            nautical miles closed to bottom trawling to protect crab 
            and rockfish habitat.

    What these closed areas have in common is that they were all 
implemented based on careful consideration of available scientific 
information, detailed analysis of biological, economic, and social 
impacts, and with extensive input from all affected or interested 
stakeholders, as well as the state of Alaska. The Council process, 
operating through the authorities of the Magnuson-Stevens Act (MSA) and 
subject to approval by the Secretary of Commerce, has demonstrated over 
and over that it is by far the best equipped to manage fishing 
activities within the U.S. EEZ, including identification and 
designation of areas appropriate for protection. The North Pacific 
region in particular benefits from some of the most extensive and 
robust scientific information available to inform its decisionmaking. 
Extensive analyses of the biological impacts to the marine resources, 
as well as the social and economic impacts to affected stakeholders, 
are conducted prior to any designations. This process includes outreach 
to, and input from, fishing industry participants, local, coastal 
residents, and environmental organizations. This ensures that when an 
area is identified for closure to fishing activities, we have 
confidence that the intended beneficial consequences to the ecosystem 
will indeed occur, and confidence that we have minimized unintended, 
and potentially adverse, consequences to the extent possible.
              aleutian islands habitat conservation areas
    I would like to specifically highlight the Aleutian Island habitat 
conservation area closures, which were established as part of the 
Council's EFH process mandated by the Magnuson-Stevens Act 
reauthorization. The Council process to identify and designate these 
areas (including NMFS and the state of Alaska) resulted in several 
hundred pages of detailed analysis of available scientific information, 
including information on coral concentrations and other benthic habitat 
features, as well as analysis of fishing patterns in the area. After a 
lengthy process of scientific analysis and stakeholder review, 
including input from local, coastal residents, fishing industry 
representatives, and environmental organizations, the Council 
ultimately developed a plan to protect known coral concentrations from 
fishing activities, and essentially `freeze the footprint' of bottom 
trawling activity throughout the entire area. The result is that only 
about 6 percent of the entire area remains open to bottom trawling; 
however, it is that 6 percent which was identified through the Council 
process which is most critical to the continued viability of 
economically and socially valuable commercial fishing activities in 
this management area. Attachment 4 illustrates the careful balancing 
achieved by this process, and the necessary complexity resulting from 
consideration of numerous management objectives--this map shows the 
closed and open areas for only a single target species, Pacific cod. 
Unilateral closure of such an area would be unnecessarily devastating 
to the fishing industry, to numerous remote, coastal communities who 
are heavily dependent upon fishing activities in this region, and to 
the United States as a whole.
    I would also note that we have developed an Aleutian Islands 
Fishery Ecosystem Plan (FEP), which serves as an overarching guide to 
our long-standing Fishery Management Plan (FMP). The FEP provides an 
explicit ecosystem context for management considerations, and includes 
a series of ecosystem indicators which can be periodically assessed to 
help inform whether further protections are warranted, and specifically 
guide decisionmakers as to specifically where and how such protections 
make the most sense. Our Council is now in the process of developing a 
similar overarching FEP for the Bering Sea management area. These 
processes will dovetail in 2016 as the Council will also be conducting 
a 5-year review of our Essential Fish Habitat provisions, which could 
inform consideration of additional, or alternative, closure areas.
                           bering sea canyons
    An additional area of intense focus for our Council over the past 
few years has involved consideration of protection measures for canyon 
areas adjacent to the vast Bering Sea slope area, specifically Pribilof 
and Zemchug Canyons, the so-called `grand canyons of the Bering Sea'. 
These canyons are small parts of the much larger Bering Sea slope, 
which is an area of extremely high productivity and importance to 
commercial fisheries. While relatively little fishing effort occurs in 
the two canyon areas (and most trawl effort occurs at depths far 
shallower than where most deep sea corals occur), the Council has been 
petitioned to prohibit fishing in these canyons, or in areas within the 
canyons, to protect areas of coral concentration or other benthic 
habitat. Beginning in 2012, based on initial video transect surveys 
(Miller et al 2012) and numerous proposals from ENGO organizations, the 
Council began to specifically examine the necessity of special 
protection for these canyon areas, as important habitat for deep-sea 
corals, sponges, and certain life history stages of fish and crab 
species. Based on examination of trawl survey and other available 
information, NMFS scientists concluded that while Pribilof canyon in 
particular does contain areas of coral concentration, neither area 
contains unique physical characteristics which distinguish them from 
other areas of the Bering Sea slope.
    Additional, underwater camera transect surveys were conducted in 
2014, and the report of that research will be reviewed by our Council 
at our upcoming October meeting. Among the results of the recent camera 
drops are that about 97 percent of the images captured were classified 
as ``containing only unconsolidated substrate (mud, sand, gravel, 
pebble, or mixed course material).'' However, this work also did verify 
areas of the Pribilof canyon with deep-sea coral concentrations. While 
relatively little commercial fishing occurs in these canyon areas 
currently (less than 3 percent of total Bering Sea catch), and most 
trawling occurs at depths much shallower than most deep-sea coral 
concentrations, it can be an important area for certain species at 
certain time. The important point is that careful consideration of the 
available scientific information, and the involvement of the numerous 
stakeholders, is necessary in order to make informed, responsible 
decisions regarding proposed closures of large areas of the ocean. 
Similar to the development of the Aleutian Islands Habitat Conservation 
Area, it is likely that, in the case of the Bering Sea canyons, a more 
surgical resolution could result in appropriate protections, without 
unnecessarily closing large areas of the ocean which are, or may be in 
the future, important to fisheries, but which would provide little 
marginal habitat protection. This is not only possible through the 
Council process, it is precisely what the Council process was designed 
to accomplish.
                      examples from other regions
    Other regional councils around the country have implemented similar 
closures for habitat protection, through very similar processes.

    New England: New England Council Chairman, Terry Stockwell, 
outlined in a recent statement numerous habitat protections developed 
by their Council over the years, some of which apply to areas which are 
currently being considered for National monument designation--for 
example, through the New England Council process fishing activities 
have been restricted in the Cashes Ledge and adjacent areas, an area of 
520 square nautical miles, for over 15 years. The NEFMC just completed 
a multi-year review of its closure system. This included the innovative 
development of the Swept Area Seabed Impact model to evaluate the 
impacts of fishing on habitat. Some measures to protect deep-sea corals 
were first adopted in 2007. In 2013, the three East Coast fishery 
management councils signed a Memorandum of Understanding to coordinate 
protection of deep sea corals. The NEFMC is now moving forward with 
plans to adopt additional protections in many offshore canyons.

    Mid-Atlantic: The Mid-Atlantic Council earlier this year took 
action to designate `deep sea coral zones' which will prohibit the use 
of any bottom-tending gear over an area of more than 38,000 square 
nautical miles--an area nearly the size of Virginia. Reflective of the 
science-base, participatory process used in the North Pacific and other 
council regions, and the need to appropriately balance habitat 
protections with fishing opportunities, Council Chairman Rick Robbins 
was quoted--``This historic action by the Council was made possible by 
the cooperation of a broad group of fishermen, advisors, coral 
researchers, conservation groups, Council members, and staff. . . . 
Many people deserve credit for their collaborative efforts to refine 
the coral protection areas in a way that protects deep sea corals in 
our region while accommodating current fishing practices.''
    The Mid-Atlantic Council took this action under the discretionary 
provisions of the Magnuson-Stevens Act which allow regional fishery 
management councils to designate zones where, and periods when, fishing 
may be restricted in order to protect deep sea corals. The success of 
this action hinged on a cooperative effort to define the proposed coral 
protection areas in order to protect deep sea corals in the region 
while accommodating current fishing practices and minimizing the 
potential negative economic impacts. Over the course of the amendment's 
development, the Council engaged with of a broad group of fishermen, 
advisors, coral researchers, and conservation groups.
    A particularly successful element of this collaborative process was 
a workshop that the Council held in April 2015, in order to refine 
proposed boundaries for 15 ``discrete coral zones,'' which are areas of 
known or highly likely coral presence. This workshop included 
participants from the Council's advisory panels, deep sea coral 
experts, industry members, and other stakeholders. During the 
interactive workshop, boundaries were refined and negotiated in real 
time, allowing the participants the opportunity to provide feedback on 
key areas of importance for both coral conservation and for fishing 
communities. This participation was critical to reconciling multiple 
boundary proposals, for which small-scale spatial modifications may 
have led to large differences in impacts, and where fine-scale fishery 
and coral data were often lacking. Workshop participants were able to 
reach consensus on alternative boundaries for all 15 proposed discrete 
areas, all of which were ultimately recommended by the Council for 
implementation.

    Pacific: The Pacific Fishery Management Council (Pacific Council) 
has a long and collaborative history of protecting habitat and unique 
natural areas. The West Coast currently has extensive conservation 
areas in place. In 2005, the Pacific Council set aside over 130,000 
square miles of essential fish habitat conservation areas for species 
in its Pacific Coast Groundfish Fishery Management Plan. Additionally, 
there are five national marine sanctuaries on the West Coast, the 
California Coastal National Monument, and numerous state water marine 
protected areas in California, Oregon, and Washington. A new national 
monument designation for marine areas would presumably be for the 
purpose of protecting objects of historic or scientific interest and 
the West Coast has both existing protected areas and an open Pacific 
Council process to address current and potential future needs.
    The Pacific Council is currently considering further geographic 
protections and conservation areas. The Pacific Council has been 
engaged for the last 5 years in an extensive review of groundfish 
essential fish habitat. This collaborative and transparent process 
between stakeholders, environmental organizations, and government 
agencies has resulted in proposals to add an additional 120,000 square 
miles of essential fish habitat conservation area designations. The 
Pacific Council also works closely with West Coast treaty tribes to 
ensure that protective measures are consistent with treaty trust 
responsibilities in the tribal usual and accustomed fishing areas. The 
establishment of a national monument would, in many ways, be 
duplicative of ongoing efforts, but would lack the Pacific Council's 
valuable public process.
    Fisheries are import to our Nation in many ways; socially, 
culturally, and economically. The management of our natural resources 
through the National Monument Process can be seen as a blunt tool that 
causes controversy, resistance, and conflict. The Pacific Council 
believes that the management of our Nation's fisheries, fish stocks, 
and the habitats they rely on should continue to occur under the 
authorities of the Magnuson-Stevens Act and its collaborative processes 
through the regional fishery management councils. Our Nation's marine 
resources and fisheries are national treasures, treasures that are 
adequately protected under existing conventions.

    Western Pacific--a flip-side story: A stark contrast to these 
examples of deliberative, science-based closure designations can be 
found in the Western Pacific Region, where U.S. fishermen governed by 
the Magnuson-Stevens Act and managed by the Western Pacific Council 
have lost 30 percent (665,000 square miles) of fishing waters to 
monument and sanctuary designations, which equates to more than 100 
times the proposed Atlantic marine national monument in the Gulf of 
Maine and off Cape Cod, which together would total about 6,000 square 
miles. Created under executive proclamation without the science and 
collaboration described above, marine monument designations can subvert 
the socioeconomic and cultural importance of fishing to coastal 
communities (Hawaii is the 47th smallest state in the Union, with 6,459 
square miles of land), which depend on the ocean for food, natural 
resources, cultural identity and social cohesiveness. Combined with 
prohibited areas established under the Council process (which are based 
on a scientifically informed, public process), currently 44 percent of 
the U.S. EEZ waters in the Pacific Islands are closed to U.S. longline 
and purse-seine vessels. Purported reasons for the creation of the 
monument in the Northwestern Hawaiian Islands (NWHI), e.g., protection 
of endangered monk seals from fishing and protecting fish stock 
recruitment areas for the main Hawaiian Islands (MHI), have proved 
unfounded. Somewhat ironically, monk seals increasingly migrate from 
the NWHI to the heavily populated MHI where they fare better (and which 
is exactly where displaced fishing effort occurs), and scientific 
research indicates that ``connectivity between the MHI and NWHI is 
limited; thus, the MHI will not receive substantial subsidy from the 
Papahanaumokuakea Marine National Monument.'' (Toonen et al. 2011).
                                summary
    In summary, area closures to fishing or other activities are indeed 
an important natural resource management tool and have been applied 
extensively in the North Pacific region, and in other regions of the 
United States. The Council process, guided by the provisions of the 
Magnuson-Steven Act and other applicable laws and subject to approval 
by the Secretary of Commerce, is uniquely positioned to most 
effectively implement this management tool, using the best available 
science and with the collaboration and input of affected stakeholders, 
and the affected, adjacent state(s). This process has resulted in the 
implementation of significant protection areas throughout the North 
Pacific and the rest of the United States, and has done so in a way to 
minimize potentially adverse impacts to other components of the 
ecosystem, including region-wide habitat, bycatch encounters, coastal 
economies, and fishermen. Unilateral closure designations represent a 
tremendous destabilizing force which place significant investments at 
risk--ongoing investments in vessel replacement, processing facilities, 
and coastal community infrastructure, along with the thousands of jobs 
attendant to these activities, can be wiped out with a single, 
unanticipated, relatively uniformed action.
    Successful use of this resource management tool requires a careful 
balancing of multiple considerations which is not possible under 
unilateral actions such as monument designations. In late 2014 the 
North Pacific Council, at the request of Senator Lisa Murkowski, 
submitted a comment letter on draft legislation titled ``Improved 
National Monument Designation Process'' (similar to legislation, H.R. 
330, just introduced by Congressmen Jones and Young). Quoting from this 
letter, Council Chairman Dan Hull stated, ``Your legislation would 
indeed improve upon the existing process, and would require 
deliberative consideration of consequences, rather than unilateral 
Executive Action. . . . Further, we note that the Regional Fishery 
Management Council process provides an open and transparent forum to 
consider potential impacts of monument designation relative to fishing 
and related activities within any proposed monument site . . . and 
that, if an area is designated, any fishing regulations within that 
area should be accomplished through the authorities of the relevant 
Regional Fishery Management Council, and the processes of the Magnuson-
Steven Act.''

                              ATTACHMENT 1

        Year-Round Area Closures Established by NPFMC off Alaska

                             Summary Table


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      * Estimate; not precisely calculated from GIS mapping.

                              ATTACHMENT 2

Year-round area closures established by the North Pacific Fishery 
Management Council. Note that closures to protect Steller sea lion prey 
are not included in this figure.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                             ATTACHMENT 3

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


ATTACHMENT 4

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ____
                                 

    Dr. Fleming. OK. Thank you, panel. Thank you for your 
valuable testimony.
    I believe we will begin with questions, and I now recognize 
myself for 5 minutes.
    Mr. Williams and also Mr. Moore, you saw the photograph up 
there of Mr. Huffman, Ranking Member, with the fish that he 
caught--I believe you said it was in either a sanctuary or----
    Mr. Huffman. It is a sanctuary.
    Dr. Fleming. Sanctuary. OK. So my question to you, Mr. 
Williams and Mr. Moore: will you be able to fish in sanctuary 
and monument areas?
    Mr. Moore. Mr. Chairman and Mr. Huffman, if you had gone 
fishing in the Channel Islands National Monument, as opposed to 
the Gulf of Farallones, you would not have been able to fish, 
because there is a massive marine protective area closure in 
both state and Federal waters in that island.
    So, it is going to depend on what regulations are in place 
in what area.
    Dr. Fleming. Mr. Williams, what about you?
    Mr. Williams. We are being told that we are not going to be 
allowed to go in there. I have not been told anything from 
NOAA. The environmental groups that are spearheading this have 
it closed for commercial fishing.
    Dr. Fleming. What about that, Dr. Bamford? Are they going 
to be able to fish?
    Dr. Bamford. Again, for sanctuaries, the ones that exist, 
there is a lot of fishing that is allowed. Less than 2 percent 
of fishing is restricted within sanctuaries, based on the 
sanctuaries authorities and the Sanctuaries Act. We have 
thriving, both commercial and recreational fishing----
    Dr. Fleming. Well, what about going forward? We are talking 
about new sanctuaries, new monuments. Is fishing going to be 
allowed or not?
    Dr. Bamford. New sanctuaries will be designed by the 
public. There is a very public process that we go through that 
includes the fishing councils and the fishermen. So it just 
will----
    Dr. Fleming. So, really you are not committing one way or 
another here today that there will be fishing.
    Dr. Bamford. That is correct. It will depend on the 
resources.
    Dr. Fleming. OK. Now, Mr. Williams, you were at the 
September 15 town hall hosted by NOAA regarding the potential 
marine national monument designation in New England. In your 
testimony, you mentioned that it was hastily arranged and that 
NOAA provided little detail on the proposal. Could you 
elaborate a bit more on that and the town hall meeting as a 
whole?
    Mr. Williams. Generally, whenever there is a public hearing 
or public meeting, you will find it in the Federal Register. I 
believe there is a regulation someplace; it has to go in 3 
weeks prior to the meeting.
    This meeting was not announced until 10 days prior to the 
meeting. It went out in email, and it just went to a general 
NOAA emailing address; and many people that are actually in 
these fact sheets did not even know about the meeting. They are 
stakeholders, and they did not know about it until even up to 
the day before the meeting.
    Dr. Fleming. And, Dr. Bamford, it seems like there was 
little or no notice. It was difficult for Mr. Williams. We know 
he is a busy businessman, commercial fisherman. What about 
that?
    What is your response to such lack of notice?
    Dr. Bamford. Although no public process is required on the 
Antiquities Act, we did want to hold a public process, a public 
meeting, and a listening session in the region.
    On September 1, the NGOs held a meeting at the aquarium, 
and they talked about this issue. We heard interest in it, so 
we wanted to follow up with a public----
    Dr. Fleming. But what do you say to Mr. Williams though? 
This is his trade craft. This is how he makes a living. He has 
employees, I am sure. What do you say about this?
    Does it really matter that he does not get notice? His 
business could be wiped out of existence.
    Dr. Bamford. The listening session is very important 
information. We are continuing to gather information. We are 
very thankful that Mr. Williams was there. The public comment 
period is still open, and he can submit continued comments into 
that process.
    Dr. Fleming. Mr. Williams, what do you say about that? How 
does that impact your business?
    Mr. Williams. I think it is unfortunate that this was the 
only meeting, and I was basically given 2 minutes. I mean even 
getting 5 minutes in front of you was much better.
    It is pretty hard to go up and make a position to try to 
save your company in 2 minutes.
    Dr. Fleming. Dr. Bamford, would you commit today to having 
more meetings, giving Mr. Williams and others an opportunity to 
make their plea?
    We still do not know whether they are even going to be 
allowed to fish if this goes forward, but certainly their input 
is important. Would you agree? Would you agree to more 
meetings?
    Dr. Bamford. I would agree input is extremely important, 
and that is why we have the public comment period still open.
    In terms of our future schedule----
    Dr. Fleming. But I asked about meetings.
    Dr. Bamford. In terms of our future meeting schedule, I 
really cannot speak to that at this point, but continue to 
engage----
    Dr. Fleming. So you will not commit to more meetings?
    Dr. Bamford. In terms of our future schedule, I don't know 
that at this time. We can get back to you on that.
    Dr. Fleming. So, your schedule is more important than Mr. 
Williams' business is what you are saying.
    I now yield to the Ranking Member for questions.
    Mr. Huffman. Just for the record, that is not what I heard 
you say. I will ask you, Dr. Bamford--we do a lot of strawman 
chasing here in the committee, we hear rumors and sometimes 
even concoct threats toward industries, and then have entire 
hearings that are about knocking down those strawmen.
    So, we are hearing about a petition to use the Antiquities 
Act, a petition not from anybody in government, not from 
anybody in Congress, from people entirely outside, to create a 
new national monument in the Aleutian. Is the Administration, 
to your knowledge, even considering a national monument 
designation in the Aleutians?
    Dr. Bamford. I have not been part of those discussions.
    Mr. Huffman. Yes.
    Dr. Bamford. But to my knowledge, no.
    Mr. Huffman. I have seen no evidence of it either, but it 
is one of many useful strawmen that we see in the political 
debate around here.
    Let me just ask you. Is a Presidential Proclamation under 
the Antiquities Act the only way a national monument can be 
created? Is there another way to use the Antiquities Act?
    Dr. Bamford. That is correct. There is another way. 
Congress, under legislation, can also designate a monument, as 
well as the President through the Antiquities Act.
    Mr. Huffman. Right, and in addition to the power to create 
national monuments, does Congress have the authority to rescind 
national monument designations?
    Dr. Bamford. I think so, but I am not 100 percent sure on 
that question. So I will have to get back.
    Mr. Huffman. I think you are right. I think your `think so' 
is right, and that they can.
    And, given that national monuments clearly are not 
permanent and, in fact, have been altered and even disbanded by 
Congress in the past, there is nothing to prevent the Majority, 
if they are so outraged about abusive designations of national 
monuments, to come up with a list of ones that they would like 
to see go away, put that list forward for public comment, and 
try to move legislation, instead of broad claims about abuse 
and improper use of the Antiquities Act.
    Dr. Rosenberg, we have heard testimony that decisions on 
which areas will be closed to fishing are best left to the 
councils under the Magnuson-Stevens Act. Do councils have the 
authority to prohibit drilling, mining, land-based pollution, 
things that could adversely affect fisheries resources other 
than just fishing?
    Dr. Rosenberg. No, they do not.
    Mr. Huffman. In your opinion, is it fair to say that some 
councils, such as the Pacific and North Pacific, have done a 
better job of protecting the ecosystems for healthy fish stocks 
than others?
    Dr. Rosenberg. I think that is generally true; but it is 
more complicated than that, as you can imagine, because 
everyone had a different starting position from when the 
regulations moved into place. So, yes, I do think North Pacific 
and Pacific have generally done a better job, but they also had 
a much better starting position when the Act came into place.
    Mr. Huffman. Let me ask you specifically about the New 
England Council. Do you think that a failure by that Council to 
protect key spawning areas and other critical habitat 
contributed to the collapse of the cod stocks?
    Dr. Rosenberg. I think it did.
    Mr. Huffman. Do you think a stronger network of marine 
protected areas in New England waters, including Cashes Ledge, 
would help groundfish stocks rebound, particularly in the face 
of climate change?
    Dr. Rosenberg. I believe the Cashes Ledge is quite 
important. I do think that it would help cod stocks and some 
other groundfish stocks. Of course, the large, closed areas of 
New England have had a major impact for other groundfish 
stocks. We have very good evidence how effective they are, 
unfortunately not so much for cod. So, Cashes Ledge is a very 
important area.
    Mr. Huffman. Thank you.
    Mr. Williams, I just want to say I appreciated your 
testimony. I appreciate the fact that you see value in the 
process. When you get folks in the room of different 
perspectives, the process can, and often does, work quite well.
    You obviously feel blindsided because you heard about a 
possible national monument designation that could move very 
quickly without the kind of process you are interested in, and 
I think your request for input, for more deliberation, and 
stakeholder involvement is a very reasonable one.
    My prediction, however, is that that's going to happen. You 
know, we will see. We do a lot of hyperventilating here about 
things that are not real or never happened. My prediction is, 
that whether this goes the way of the Antiquities Act, or under 
the Sanctuaries Act or whatever, nobody is going to blindside 
you with some permanent Federal fishery closure. I suspect that 
there is going to be a very open, deliberative, and inclusive 
process that unfolds on anything that happens in that area. 
That is my prediction, and again, I just want to say I think 
your concern is understandable, but I think it will be 
considered and addressed.
    With that, I yield back.
    Dr. Fleming. I am sure Mr. Williams appreciates your 
clairvoyance----
    Mr. Huffman. Yes.
    Dr. Fleming [continuing]. And ability to predict the 
future.
    [Laughter.]
    Dr. Fleming. Mr. Young, I recognize you for 5 minutes.
    Mr. Young. Thank you, Mr. Chairman.
    I do compliment Dr. Bamford. This Administration could 
dance better than the Rocky Bottom Boys almost. I have never 
seen groups not ever answer a question. That is what you have 
not done.
    Because no one wants to answer a question, you slip through 
the darkness and impose restrictions. The Antiquities Act was 
never meant for the ocean, never. Now to reach in, you say 
there is no worry about the Aleutians. Fine. Let's put it into 
law. You want to solve the problem? Let's put it into law.
    You say it is not there, say it is a straw boy? Let's put 
it into law, because it will be proposed by this 
Administration. I will say this, because I have been here 44 
years and I have watched this, ``We aren't going to do anything 
to you. Don't worry. The check is in the mail.''
    It has killed my timber industry and is trying to kill the 
fishing industry by federally-controlled management of fish, 
and I would say timber and all other resources, otherwise a 
socialist program.
    Has anybody explained to me, and I have listened to one 
doctor there, what advantage if someone has been fishing in an 
area for 44 years, and then you cannot fish because you have 
decided that this is a pristine area. It is a pristine area and 
you have been fishing there for 44 years. You do not count. You 
made a living off the ocean, but it is more important to 
somebody from Boston, it is more important to somebody from San 
Francisco or Los Angeles, not to the fisherman.
    Now, of the fish, and remember I was the author and a 
sponsor of the Magnuson-Stevens Act--if they are not 
sustainable, cannot provide it, the fishing is not allowed; but 
if you take fishing away from the fisherman when there is no 
danger to the fish and then you declare an Antiquities Act, you 
are taking the fishing industry away from that fisherman. And 
that has happened, and they are continuing to try to do it.
    We are buying more fish now from Thailand and Vietnam than 
we are catching ourselves. I challenge you to go over to 
Thailand and Vietnam and see how they can take care of their 
fish.
    We are taking care of our fish, and why would we impose--
and the good lady said, we do not know for sure if they can 
fish or not. Let's put it into law. Fishing that occurred in 
the past can continue to occur.
    Uh-uh, not going to do that because it is not a monument. 
It is not a sanctuary. It is an area, we are going to protect 
it from you.
    That is the thing that I have watched over and over, the 
creeping cancer of the Federal Government over-reaching. The 
worst managers of any resource is the Federal Government. They 
do not manage. They preclude. No happening at all.
    Mr. Oliver, you mentioned, I believe, or they mentioned in 
the questionings of the other councils, the councils are 
already doing a lot. What are they doing to help these things 
out? What are the councils doing?
    Mr. Oliver. I provided some examples of other regions 
around the country. I can speak certainly to the North Pacific.
    I would repeat the statistic I mentioned earlier in my 
testimony. We have 1.3 million square nautical miles that we 
manage, and two-thirds of that area, or about 665,000 square 
miles of it, is closed to all or most fishing activities. That 
is, I guess coincidentally, or perhaps ironically, equal in 
size to the 665,000 square miles that have been closed in the 
Western Pacific under monument designations.
    Mr. Young. So what you are saying now--have any of these 
monuments been proposed in the areas already closed?
    Mr. Oliver. We have not had any formal monument 
designations.
    Mr. Young. Wait a minute. Listen. If you have that many 
acres off limits now, are any of the monuments that they are 
proposing in that area? No, that is the answer to that.
    Mr. Oliver. No.
    Mr. Young. They are proposing the areas that fishing takes 
place now; is that correct?
    Mr. Oliver. The areas that I have heard discussed for 
proposed monument designation include areas like the Aleutian 
Islands, which are currently under our participatory, science-
based process. Only 6 percent of that area, for example, is 
open to cod fishing; but it is critically important that that 
area be open to cod fishing.
    Mr. Young. And that is the area they are proposing.
    Mr. Oliver. Yes, sir.
    Mr. Young. They say this is a strawman--baloney. I know 
when they propose something, it is going to be attempted by, 
and you say you can do it by legislation. We have a one-man 
delegation. You have 52, I believe. A one-man delegation, and I 
am going to change the Congress to try to solve the problem? 
You know that is not going to happen.
    So, I am saying that Congress should not allow these 
monuments set aside and sanctuaries set aside in the fishing 
area, period, until it is cleared by the Congress. Let the 
Congress say.
    Why do we let the President do this all the time? Let the 
Congress make that decision. If you decide you want to make it 
through the congressional level, then let it happen. I am still 
only one guy.
    But maybe, just maybe, instead of the agencies doing it, it 
would be the right way to do a democracy, not the Federal 
agency telling us what to do.
    Twentieth, Mr. Chairman, we are ranked today on freedom. 
That is how far we have gone down the line.
    I yield. I do not have any more.
    Dr. Fleming. The gentleman's time is up. The gentleman 
yields. The Chair now recognizes Mr. Sablan for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman; and good 
morning, everyone.
    Mr. Chairman, I actually never left the subcommittee. I 
could not. Whenever the word ``old-shunist,'' I am there. I am 
glad to be back.
    Thank you for holding today's hearing, and while I cannot 
speak for the residents of Alaska and Cape Cod, where there are 
petitions pending with the Administration to designate areas 
off of Alaska and Massachusetts, I can speak to you about an 
existing national marine monument that surrounds the Northern 
Mariana Islands, the district I represent.
    While some people may see the establishment of monuments as 
cutting off commercial fishing access, undermining domestic 
seafood supplies and associated jobs, and harming the 
environment, this is not entirely the case in the Marianas 
Trench Marine National Monument.
    Then-President George W. Bush established a Marianas Trench 
Marine National Monument by Presidential Proclamation in 
January of 2009. Over 6,000 people in the Northern Mariana 
Islands supported the creation of the monument in a petition 
campaign to the White House.
    As I have said before, we are justifiably proud of this 
world class conservation area: 95,216 square miles of submerged 
land and ocean waters. The marine monument that President Bush 
established is truly a national wonder. It includes the 
Marianas Trench, the deepest point on earth. It includes 21 
undersea mud volcanoes and thermal vents harboring exotic forms 
of life in some of the harshest conditions imaginable.
    A pool of liquid sulfur at the Daikoku submarine volcano in 
the monument is one of only two known locations of molten 
sulfur. The other one is on Io, one of the moons of Jupiter.
    In the Commonwealth of the Northern Mariana Islands, we 
value the monument. It is home to species ranging from stony 
corals to threatened sea turtles to unique deep sea animals. 
Protecting this and other special places from destruction is 
critical to scientific discovery and natural resource 
management.
    After the creation of the monument, it was important to 
follow up with education, scientific research, and exploration 
of this vast area. That is why I had introduced bills that 
would authorize the construction of a multipurpose visitor 
center for the interpretation, public education, and enjoyment 
of the marine environment within the boundaries of the Marianas 
Trench Marine National Monument.
    Later, I was able to secure funding through appropriations 
for the assessment of a possible visitor center site, and last 
year in September, the Marianas Trench Monument Advisory 
Council hosted public meetings to gather ideas from the 
community regarding the purpose and location for the visitor 
center.
    A final report has been drafted and is being reviewed by 
the Commonwealth government.
    Management plans are also being hashed out, especially as 
the Commonwealth government and the Federal Government 
continues negotiations on the terms to coordinate management 
around the island's unit, which includes management of the 
waters and submerged lands of the three northernmost Mariana 
Islands.
    Back in 2013, we were able to address management measures 
to allow noncommercial fishing, including subsistence, 
recreational, and traditional indigenous fishing, within the 
island units. This was an important step to harmonize the 
traditions of the people of the Northern Mariana Islands while 
at the same time to help protect and preserve valuable natural 
resources.
    Its location is different, and any president considering 
establishing or expanding a marine monument should always 
thoroughly consider the benefit and impacts to that area.
    I will being my line of questioning with Dr. Bamford.
    Dr. Bamford, how close are you to finalizing an agreement 
with the Commonwealth government on the coordination of 
management of the protection of resources of the monument?
    And, can you please provide, as I have very little time, a 
brief description of NOAA's plan to support the Marianas Trench 
Monument in the upcoming fiscal year?
    Dr. Bamford. Thank you.
    Yes, we have provided, as you said, a draft management plan 
to CNMI, and they are currently reviewing that. As you know, 
they have been hit by a number of typhoons so they have been 
pretty busy, but they are getting to it.
    We have a great working relationship with CNMI and are 
looking forward to completing that.
    Mr. Sablan. When? When? When?
    Dr. Bamford. Hopefully, as soon as possible.
    Mr. Sablan. That is not a time.
    Dr. Bamford. Well, it is in CNMI's hands right now.
    Mr. Sablan. I understand.
    Dr. Bamford. So, hopefully, they will get that to us as 
soon as possible.
    Mr. Sablan. I empathize with Mr. Young's statement that he 
is a single delegation. Imagine not just being a single 
delegation, but being a delegate and also getting the Federal 
Government--Mr. Chairman, my time is up. I will yield back.
    Dr. Fleming. I thank the gentleman.
    The Chair now recognizes Mr. LaMalfa for questions.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Pivoting off of what my colleague from Alaska was saying 
here, when you are looking at a designation of a monument, 
sanctuary, or wilderness area, it only takes one signature by 
the executive. We heard the gentleman, Mr. Moore, talking about 
how he had 2 minutes to make his case, right? Is that not what 
you said earlier?
    Mr. Moore. No, that was Mr. Williams, I believe, sir.
    Mr. LaMalfa. Oh, was it Mr. Williams? OK. I am hopping 
around here. Sorry.
    The gentlemen who are in business here, 2 minutes to make 
your case for something that gravely important to you versus a 
stroke of a pen down at 1600 Pennsylvania, and then it was 
asserted that, ``Well, you can repeal it any time.''
    It takes 218 plus 60 plus 1. As you have noticed, things do 
not move very quickly in this body around here, nor do you 
align the planets, or the blood moon or whatever it is, that 
often to get that done very often.
    So, once you have one of these designations, it just does 
not come right back off, and the public process can be very 
spotty.
    I have clairvoyant prediction as well. Sometime in the next 
16 months, there will be several new wilderness areas, 
monuments, others put in place with little activity from the 
people that really are paying for it being able to counteract 
that.
    So, I am not happy with it when Ms. Bamford mentioned also 
that there is no requirement of public process in the 
Antiquities Act. You said that, correct?
    Dr. Bamford. Yes.
    Mr. LaMalfa. OK. So it is the public who loses out on it. 
As I watch our forests burn in California in the West, seeing 
how the Federal Government being in charge of that Federal land 
is continuing to let that happen, I do not think we need to 
have a heck of a lot more lack of public process in how these 
things are managed.
    Let me get to a question or two here quickly. The gentleman 
from Alaska was speaking about the Magnuson-Stevens Act, and 
there will be a reauthorization of that in H.R. 1335, that the 
Act would be the controlling fishery management authority in 
cases of conflict with sanctuaries or monuments, et cetera, 
under the Antiquities Act.
    First of all, Ms. Bamford, do you support this language in 
H.R. 1335?
    Dr. Bamford. As a single agency under the Administration, I 
cannot really comment on that legislation at this time.
    Mr. LaMalfa. So how difficult is it? What is the process 
for getting permitting to fish in an area that is not already 
designated as a monument or a sanctuary? What is the process 
one would have to go through to go out and set up shop and 
start a fishing operation in any area not designated, just for 
the record?
    Dr. Bamford. Typically the requirements for fishing in 
Federal waters would be worked through the Fisheries Management 
Council process.
    Mr. LaMalfa. And what kind of permitting does that look 
like?
    Dr. Bamford. I think it depends on the type of fishing, if 
it is trawling, if it is in the water column. There would be 
various permits and processes that would take place depending 
on the type of fishing and the type of region that you are in.
    Mr. LaMalfa. If I wanted to set up shop to take any type of 
fishing, are there permits available? Are they all taken up? 
Are they expensive? What is the time line for them, things like 
that?
    Dr. Bamford. Again, it depends on the region and what fish 
you are actually talking about, but I can get you specifics as 
a follow-up.
    Mr. LaMalfa. Well, would you say there are permits readily 
available for most types of species, whether it is trawling, 
whether it is shellfish, what?
    Dr. Bamford. I am not sure.
    Mr. LaMalfa. OK. I would guess that they are not very easy 
to get a hold of and that they are pretty expensive. My 
understanding is that these permits are kind of like something 
that is inherited, or passed through generations or sublet, and 
so you do not easily just set up shop fishing.
    What I am getting to is that the designation of a marine 
sanctuary or a monument is a vast over-reach when you already 
have a regulatory scheme in place that monitors and keeps in 
check the amount of fishing that goes on.
    And, indeed, if you are having an enforcement operation, is 
it any easier to enforce people that have a permit for fishing 
versus those that should not be out there at all? Is it the 
same amount of effort for enforcement personnel to enforce 
inside a sanctuary versus legalized fishing in maybe a similar 
area?
    Dr. Bamford. We focus our enforcement within the 
sanctuaries, monuments, and fishing grounds as appropriate.
    Mr. LaMalfa. Thanks, Mr. Chairman.
    Dr. Fleming. OK. The gentleman yields back.
    Mr. Lowenthal is recognized.
    Dr. Lowenthal. Thank you, Mr. Chair, and I am glad we are 
having this hearing today. In my state of California, we have 
one of the largest ocean economies in the country, but we also 
understand the importance of, and the value of, setting aside 
large areas of the ocean for conservation, and we are talking 
about national marine sanctuaries, but we are also talking 
about, in the discussion today, we are talking about all of the 
marine protected areas.
    As has been pointed out, although we have set aside 
thousands of acres of Federal and state waters protected areas, 
which include as we know the sanctuaries, the reserves, and the 
monuments, no take fishing amounts to only slightly less than 3 
percent of the areas of water that are dedicated.
    So, we are not talking about a large amount of area, 
because in our toolbox, which we are really talking about what 
should be in the toolbox, there are many things to preserve our 
ecosystem, how we can build resilience. We can use this to 
build resilient ecosystems, rebuild fish stocks; and we can 
also do that without totally eliminating the ability to fish, 
and that is really what we are talking about.
    I think it is really important that we go about setting 
aside marine protected areas in the right way to maximize 
ecosystems and economic benefits. Marine protected areas offer 
great long-term protection and conservation potential, but as 
with any tool as we are hearing, the type of protection needs 
to be carefully matched to the conservation and fishery 
management goals that we set out for an area.
    We need to make sure that communities are on board because 
public input and buy-in is important. We also need to ensure 
that management is ecosystem-based, includes relevant 
stakeholder partnerships, and that scientists do have access to 
track the conservation's progress and to measure results.
    Finally, and this is our job in Congress, we need to make 
sure that sanctuaries, wildlife refuges, and monuments have 
adequate funding in order to properly manage these conservation 
areas.
    My questions are to Dr. Bamford. As the Chair, myself, of 
the Safe Climate Caucus, I am very much interested in how we 
can increase the resiliency in the face of climate change. You 
have been a leader in efforts to build resiliency to climate 
change and to managing our oceans and coastal resources to best 
address a shifting climate.
    What I would like to know is: what are the scientifically 
accepted practices for increasing the resiliency of ecosystems 
to respond to these changes? That is my first question.
    Dr. Bamford. Ecosystems, we have shown in studies, are 
significantly important to improving the resiliency of any 
coastal community. We have seen it for essential fish habitat; 
but beyond that, we have seen it for coastal protection of 
severe storms as well as flooding, both nuisance flooding that 
can happen on sunny days during high tides and high winds, as 
well as during major storms.
    So, ecosystems provide a suite of services, not only for 
the ecosystem and the species that live in the water, but for 
the community itself.
    Dr. Lowenthal. Good. So you believe then, in talking about 
habitat protection, that some highly valuable and diverse 
marine ecosystems for permanent protections can aid in that 
effort; that's what you believe?
    Dr. Bamford. Yes, sir.
    Dr. Lowenthal. Dr. Rosenberg, are there changes happening 
in the oceans that are impacting marine ecosystems and fish 
stocks?
    Dr. Rosenberg. Yes, there are. Certainly, the ongoing 
effects of climate change as detailed in the National Climate 
Assessment are changing the conditions for marine ecosystems, 
and we have seen quite a bit of that in the Northeast, 
including, of course, the impact on iconic cod stocks.
    Dr. Lowenthal. In your testimony and here, you raise the 
concept of marine protected areas as a hedge against 
uncertainty and overexploitation of resources.
    Do you believe that climate change makes hedging our bets 
in this respect even more important?
    Dr. Rosenberg. Absolutely.
    Dr. Lowenthal. Thank you, and I yield back.
    Dr. Fleming. The gentleman yields back.
    Mrs. Radewagen is recognized for 5 minutes.
    Mrs. Radewagen. Thank you, Chairman Fleming and Ranking 
Member Huffman, for holding today's hearing.
    I also want to thank the panel for being here today.
    In my home district of American Samoa, the ocean plays a 
culturally and economically significant role in day-to-day 
life, and has for hundreds of years. Long before American Samoa 
became a U.S. territory, people have fished for their 
livelihood in these waters that surround the island, and to 
this day these traditional fishing methods are still practiced.
    In addition to the cultural significance, commercial 
fishing and the related industries make up nearly 80 percent of 
our island economy. So, I would not be exaggerating if I said 
the people of American Samoa understand better than most the 
importance of protecting our oceans, and how much of an impact 
those broad, sweeping administrative decisions have on 
individual communities.
    Mr. Oliver, fishing is a mainstay for the local culture and 
economy in American Samoa, and both sanctuaries and marine 
national monuments in the Western Pacific have impacts on our 
fisheries. Many proponents of marine monuments say they do not 
hurt commercial fishing because the grounds directly outside of 
the monument become more fruitful.
    However, in your testimony you seem to indicate that may 
not always be the case. Looking at the monuments in the Western 
Pacific, what did those designations do to commercial fishing?
    Also, in your professional opinion, have the monuments in 
the Western Pacific succeeded in aiding the species they were 
created to protect, such as the monk seal?
    Mr. Oliver. I am not an expert on Western Pacific 
fisheries, but I can respond to that question based on my 
general knowledge and information that was provided to me for 
this hearing by the Western Pacific Council.
    Any time you close an area, you move fishing effort into 
other areas, concentrated on the margins of the closed areas. 
If you do such a closure designation without a real knowledge 
of what those impacts are, you do not know whether you are 
moving fishing effort into areas that have a greater impact or 
a higher bycatch. All you know is that you have displaced 
fisheries.
    In the case of the Western Pacific Northwestern Hawaiian 
Islands, the purported creation of the monument was for the 
protection of endangered monk seals from fishing, and also for 
protecting that area for fish stock recruitment, essentially 
for seeding other areas.
    Recent scientific publications on that have actually shown 
that to be unfounded. In fact, somewhat ironically, the monk 
seal populations appear to be migrating out of the Northwestern 
Hawaiian Islands and into the main Hawaiian Island areas which, 
in fact, is where the effort was displaced directly into, where 
the displaced fishing effort now occurs.
    That research also indicated that the connectivity in terms 
of stock recruitment, the connectivity between the main 
Hawaiian Islands and the Northwest Islands, is quite limited. 
Therefore, the main Hawaiian Islands will not receive 
substantial benefit from that closure.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    Dr. Fleming. The gentlelady yields back.
    The Chair recognizes Mrs. Torres for 5 minutes.
    Mrs. Torres. Thank you, and good morning.
    Mr. Rosenberg, the majority of the Fishery Management 
Council members are participants in, or otherwise financially 
linked to, the commercial or recreational fishing industry. 
Their votes are the ones who also determine how the Council 
manages offshore conservation efforts.
    Do you think that this process produces the best outcomes, 
or could it be improved?
    Dr. Rosenberg. Thank you for the question.
    You are certainly correct in terms of the membership of the 
councils. I believe that there has been significant progress in 
fishery management. Of course, the process could be improved. I 
think with the discussion that we are having today, although we 
are centering on fisheries, we have sort of left to the side 
all of the other issues that occur within an area that might be 
designated as a monument, such as the seamounts, canyons, and 
ledge areas for biodiversity; and the councils, while they 
touch on that and habitat, it is really only focused on the 
impacts on fisheries.
    Mrs. Torres. So how are the comments and priorities of 
nonfishing members incorporated into Council decisions?
    Dr. Rosenberg. There is a public process and usually the 
people who participate in that are from the nongovernmental 
organization. There is an opportunity for the broader public, 
but by and large, the broader public does not participate in 
the process. It is largely the fishing industry, both 
recreational----
    Mrs. Torres. The majority of you, as citizens, cannot 
participate because either they do not know about these 
processes, are left out because they are not members, or they 
do not have a participating member on this council or these 
councils.
    Dr. Rosenberg. They are not precluded from participating, 
but what you just stated is correct.
    Mrs. Torres. Thank you.
    Dr. Bamford, we have heard that there are potential adverse 
impacts resulting from the creation of sanctuaries and 
monuments. I also know that there are positive economic 
impacts.
    Can you talk a little bit about those positive economic 
impacts?
    Dr. Bamford. Yes. Thank you for the question.
    It is estimated, as I said in my opening remarks, that 
sanctuaries can generate about $4 billion annually to coastal 
communities. There is also a significant increase in tourism 
and recreation.
    For example, up in the Great Lakes, we have the Thunder Bay 
National Marine Sanctuary. It has generated $92 million in 
sales and $35 million in personal income, and has generated 
over 1,700 jobs in that region.
    The visitor center at Thunder Bay, which is located in 
Alpena, a population of only 11,000 people, gets 60,000 
visitors annually. That is three times the amount of the 
population, so it is an extremely populated destination for 
tourists.
    Mrs. Torres. And, it is because of this impact with tourism 
coming into these communities, that would otherwise not have 
solid employment opportunities, that I think it is critical for 
outsiders, that are not professional fishermen or financially 
linked to these management councils, to have an opportunity to 
be able to participate in the dialog as we move forward.
    Thank you, Mr. Chairman, and I yield back the rest of my 
time.
    Dr. Fleming. The gentlelady yields back.
    Mr. MacArthur is now recognized for 5 minutes.
    Mr. MacArthur. Thank you, Mr. Chairman.
    I have heard a lot of different Acts mentioned this 
morning: National Marine Sanctuaries Act, Magnuson-Stevens Act, 
the Antiquities Act. I have heard programs mentioned under 
those: the National Monuments Program, the Marine National 
Monuments Program.
    I guess I would start with you, Dr. Bamford. Do you see 
these as parallel paths to achieve identical objectives, or do 
you think each of these has a unique purpose?
    Dr. Bamford. Congress has created a number of different 
authorities for the Administration, as well as the President, 
to look at conservation. I do think they are different.
    We have seen in the Sanctuaries Act, in the sanctuaries 
process, it is completely different from the monument process, 
which is also different from the Fisheries Management Council 
process.
    Mr. MacArthur. Following on that, these all seem to have a 
nexus in your world, in NOAA, and I appreciate that. I 
represent a coastal area and a lot of interests, fishing 
interests and recreational interests, and I appreciate the work 
that NOAA does; but with regard to the Antiquities Act, what 
would you see as the primary purpose of that Act?
    Dr. Bamford. So the primary purpose of that Act would be 
that it grants the President an opportunity to protect objects 
in the ocean to the fullest extent.
    Mr. MacArthur. In your opinion is trying to achieve 
environmental objectives, as worthy as they might be to people, 
is that in your view, consistent with the primary purpose of 
the Antiquities Act as it was intended in 1906?
    Dr. Bamford. I cannot speak to the original intent, but the 
Antiquities Act required that the President designate objects 
to be protected and assures those protections through that 
authority.
    Mr. MacArthur. For the record, I would state my strong 
opinion that it is being abused, and that its purpose is trying 
to be twisted by people who did not get their way through the 
obvious path and are now wanting to go a different route and 
hopefully get a different result.
    I will stay with you, if I might, for another minute. 
Representative Huffman predicted an open process, and I would 
like you to follow on--you were asked about this earlier, but 
you did say that no public process is required under the 
Antiquities Act; is that correct?
    Dr. Bamford. That is correct.
    Mr. MacArthur. So, how would we achieve this public process 
that was predicted? How will people have any input into this 
process if there is no public process required?
    Dr. Bamford. Under the American Great Outdoors Act, this 
Administration has stated that it will have an open and 
transparent process for any monument designations. Although 
there is no public process required for the previous four 
national marine monuments in the Pacific that NOAA was involved 
with, there was public engagement, and so we are hoping that 
that process continues to help in decisionmaking.
    Mr. MacArthur. I am hoping, too, although when it is not 
required by law, I become less optimistic in my hope.
    Mr. Moore, I appreciated your testimony because, with all 
of this highfalutin talk about hopes and dreams and what we are 
going to do, it is good to be reminded that it affects real 
people, and the same with you, Mr. Williams. I thought it is 
helpful to be reminded that it affects real people.
    And I guess I would ask you. I have gill netters, long 
liners, scallopers, and trawlers; I have them all. I have 
recreational fishermen that go out off the New England Coast 
and the Jersey Shore. I have people who make their living. We 
have a $4 billion fishing industry, and I have people that feed 
their wives, husbands, and children. They make their livings. 
They employ people.
    What do I tell them when suddenly we have just decided 
without a public process being required, that suddenly this 
area is so pristine and so essential for the happiness of 
America that you can no longer fish in it?
    How do we respond to people like that?
    Mr. Moore. I wish I knew, Mr. MacArthur. To me it makes no 
sense. You have the sanctuary process, which is locally-based 
and has a public process and so forth, which can designate 
discrete areas as perhaps worthy of protection, but it does not 
designate a massive area with just the stroke of one person's 
pen.
    Mr. MacArthur. Well, I agree. I wish I had more time to 
discuss it more, but I yield back, Mr. Chairman.
    Dr. Fleming. The gentleman yields back.
    The Chair recognizes Gentlewoman Dingell for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Today's hearing is an interesting one, and it is an issue 
we should be examining very closely. However, the fact of the 
matter is that the national marine sanctuaries and marine 
national monuments have been very useful tools to protect some 
of the world's most iconic treasures, even if they lie on the 
ocean floor.
    Testimony today has raised concerns that the new 
designations could hinder economic activity and cost jobs, and 
if that is indeed the case, I have some very serious questions, 
as have been raised, and I guess my colleague from Alaska is no 
longer here and others followed on it. I would like to say I 
would love to do more bipartisan talking about some of these 
issues in the Congress and wish we could do more together and 
find ways to do that. We do not do enough of it. But I will 
leave that. That will be my last editorial comment of the day.
    Let me ask some questions that will explore this economic 
cost of jobs. Dr. Bamford, is it true that there is no hard and 
fast rule banning fishing in the marine national monuments, but 
that Presidential Proclamations and management plans for 
individual monuments dictate what is and is not allowed?
    Dr. Bamford. Yes, ma'am, that is correct. It is depending 
on the objects being protected. Basically under the Antiquities 
Act and a monument, the President designates the object to be 
protected and assures their proper care and management.
    Mrs. Dingell. So are there monuments in sanctuaries that 
allow fishing?
    Dr. Bamford. Yes.
    Mrs. Dingell. Can you please provide a list for the record 
of all the monuments and sanctuaries that allow fishing?
    Dr. Bamford. Yes, we can.
    Mrs. Dingell. Then I want to build on some previous 
questions with both you and Dr. Rosenberg. Dr. Bamford, can you 
discuss how your agency balances the economic needs with 
conservation priorities when managing the national marine 
sanctuaries or monuments?
    Dr. Bamford. Sure. We always try to balance economic, 
social, cultural, and heritage needs as well as the resources. 
We take an ecosystem-based approach to our management 
authorities. We do that through various processes.
    For example, the sanctuaries process is a process that is 
bottom up. We work with the Sanctuaries Advisory Council. We 
take public input. We work with the community in the region to 
ensure we are balancing each of those pieces.
    Mrs. Dingell. Dr. Rosenberg, to what extent do fishery 
management councils take into account the needs and interests 
of other ocean users, such as ocean tourism and whale watching 
businesses, et cetera?
    Is the Council process adequate to meet all of our 
important resource conservation challenges?
    Dr. Rosenberg. Those other activities are taken into 
account through the public process that the councils run; but, 
no, I do not believe it is adequate. I believe that is the 
reason why we have different authorities for different areas, 
like the Sanctuaries Act, in addition to the Fisheries 
Management Act. The Fisheries Management Act is focused on 
fisheries.
    Mrs. Dingell. Thank you. I yield back the balance of my 
time.
    Dr. Fleming. The gentlelady yields back, and the Chair 
recognizes Congressman Graves for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman.
    Thank you very much for being here, Dr. Bamford, and I 
welcome you back to being in the committee. I appreciate you 
being here again.
    I am struggling a little bit with the National Marine 
Sanctuaries Act. Why would Congress establish a process whereby 
you could establish a national marine sanctuary, and then at 
the same time, have a law that predated it that Congress 
intended to allow for the President to create these offshore 
areas through the Antiquities Act.
    Dr. Bamford. Congress has created a number of different 
authorities to the agencies and to the President for protecting 
natural resources for various reasons. These include the Outer 
Continental Shelf Act, Sanctuaries Act, Magnuson-Stevens Act, 
Coastal Zone Management Act; and I think the Administration 
looks at all of those tools in the toolkit to decide, based on 
what resource they are looking to protect.
    Mr. Graves. Yes, but none of those other ones allow to set 
areas offshore and put restrictions on them in regard to 
designating them as sanctuaries or otherwise off limit zones. 
That would only be the National Marine Sanctuaries Act, 
correct?
    Dr. Bamford. Say that again.
    Mr. Graves. In terms of actually designating an area as 
protected area, only the sanctuaries authority in this case 
would apply in terms of being able to actually designate it as 
a protected area, largely.
    Dr. Bamford. I think----
    Mr. Graves. You have other things, essential fish habitat--
--
    Dr. Bamford. Sure.
    Mr. Graves [continuing]. And things along those lines which 
I understand, but in regard to establishing an area as a 
protected area, like you would a national park or something 
else, those two are the only ones that apply here.
    Dr. Bamford. There could be others, but the National Marine 
Sanctuaries Act does designate certain areas under the 
Sanctuaries Act as protected and managed.
    Mr. Graves. I just want to make note again that the 
Antiquities Act only makes reference to land, whereas obviously 
the Marine Sanctuaries Act applies to offshore areas.
    Why do you think it is appropriate to avoid using 
authorities like NEPA and APA to apply to the Antiquities Act 
process?
    Dr. Bamford. The President is not subject to the NEPA 
process, but once the monument is created or any monument is 
created, the agencies then promulgating any regulations or 
authorities do go through that NEPA process.
    Mr. Graves. But is there any other case whereby a Federal 
project, program, or some activity would be carried out whereby 
you would sort of retroactively apply NEPA or APA, as opposed 
to doing it on the front end to help inform your decision in 
determining whether or not that it makes sense to actually do 
the designation to begin with and understanding socioeconomic, 
environmental impacts, and others?
    Dr. Bamford. Again, the President is not subject to NEPA, 
but many agencies then that have management authority are, and 
we go through that process doing delegation of any rules and 
regulations.
    Mr. Graves. So the answer is no? My question was: Is there 
any other situation where NEPA and APA effectively are applied 
retroactively like this?
    Dr. Bamford. To Federal agencies? Not that I am aware of.
    Mr. Graves. Thank you.
    This really seems to be somewhat of a black box type 
process. NEPA does provide sort of a window into that. It 
allows for public participation, allows for I think the agency 
to get a fully informed approach to these decisions on the 
front end, and it seems entirely contrary to a lot of the 
messaging that this Administration has done in the past about 
transparency, making sure that decisions are fully informed, 
and environmental consequences are being considered. It just 
seems entirely inappropriate in this case.
    What role do you see Congress having in terms of the role 
in making these designations? Certainly, there are cost 
implications and other things, which is a role of the Congress. 
What role do you see Congress playing in terms of designating 
these monuments?
    Dr. Bamford. I do not want to define your role, but 
Congress has created the Antiquities Act and also Congress can, 
through legislation, designate a monument if they choose to.
    Mr. Graves. But in regard to the designations or potential 
designations, it sounds like you are suggesting that Congress 
largely just play a bystander role, despite the fact that there 
could be significant cost implications on these decisions.
    Dr. Bamford. I do not----
    Mr. Graves. Mr. Chairman, one last question if I can.
    Years ago there was a proposal that was out there. I 
believe it was called ``Island in the Streams.'' It was a 
proposal for a potential monument designation in the Gulf of 
Mexico. Can you tell me if there are any potential monument 
designations in the Gulf of Mexico that are currently under 
consideration by the Administration?
    Dr. Bamford. No, sir, not that I am aware of.
    Mr. Graves. I just want to be clear, and certainly the 
Chairman knows this as well as I do. The Gulf of Mexico is a 
unique area; and coastal Louisiana in particular is known as 
being a working coast. We have been able to be the top offshore 
energy producer, the top commercial fisheries producer, I think 
the fourth top recreational commercial fisheries in the 
Continental United States, I think the fourth top recreational 
fishing destination, and one of the most productive ecosystems 
on the continent.
    We have been able to manage all of those things at the same 
time, and we have done a good job at that. I just want to make 
note that the management regime that is underway today seems to 
be working really well, and I think any efforts to come in and 
distort that would be problematic and not met very well among 
the Gulf Coast states.
    Thank you, Mr. Chairman.
    Dr. Fleming. And among all those things, the best food.
    We thank the panel members today for your valuable 
testimony. It has been very interesting and very informative.
    Members may have additional questions; we will submit those 
in writing and would appreciate your response on that.
    If there is no further business, the committee is 
adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
